1

IN THE SUPREME COURT OF THE UNITED STATES
IN RE BARBARA STONE
Petitioner

APPENDIX

APPENDIX B

Case l:15-cv-20150-JAL Document 64 Entered on FLSD Docket 12/07/2015 Page 1 of 15

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 15-20150-CIV-LENARD/GOODMAN
ROY R. LUSTIG,
Plaintiff,
v.
BARBARA STONE,
Defendant.
OMNIBUS ORDER DENYING DEFENDANT’S “EMERGENCY” MOTION (1)
FOR LEAVE TO FILE OBJECTIONS TO MAGISTRATE’S REPORT. (21 FOR
ADMISSION PRO HAC VICE & SUPPORTING DOCUMENTATION BY MAIL
TO PROVIDE LOCAL COUNSEL ADDITIONAL TIME, (3) TO SET ASIDE
ENTRY OF DEFAULT, AND (4) FOR LEAVE TO FILE AN ANSWER AND
AFFIDAVITS. (D.E. 60; ADOPTING REPORT AND RECOMMENDATIONS ON
PLAINTIFF’S DAMAGES (D.E. 58); ENTERING FINAL JUDGMENT IN
FAVOR OF PLAINTIFF AND AGAINST DEFENDANT: ENTERING A
PERMANENT INJUNCTION: DENYING ALL REMAINING PENDING
MOTIONS AS MOOT: AND CLOSING CASE
THIS CAUSE is before the Court on the Report and Recommendation of
Magistrate Judge Jonathan Goodman, (“Report,” D.E. 58), filed August 18, 2015.
Therein, Judge Goodman recommends awarding Plaintiff $1.7 million in damages and
entering a permanent injunction against Defendant. (Report at 17-18.) Defendant filed
Objections on August 31, 2015, (“Objections,” D.E. 59), to which Plaintiff filed a
Response on September 9, 2015 (D.E. 63).
Also before the Court is Defendant’s “Emergency Motion for Leave to File
Objections to Magistrate’s Report, Motion for Leave to File Answer and Affidavits,

Case l:15-cv-20150-JAL Document 64 Entered on FLSD Docket 12/07/2015 Page 2 of 15

Motion to Set Aside Entry of Default, Answer, Motion for Admission Pro Hac Vice &
Supporting Documentation by Mail to Provide Local Counsel Additional Time,”
(“Motion,” D.E. 61), filed September 2, 2015. Plaintiff filed a Response on September 4,
2015, (D.E. 62), to which no Reply was filed. Upon review of the Report, Objections,
Motion, Responses, and the record, the Court finds as follows.
1.

Background
This is an action by pro se Plaintiff Roy Lustig against pro se Defendant Barbara

Stone for defamation, intentional infliction of emotional distress, interference with
advantageous business relationship, and injunctive relief.1 (See Am. Compl., D.E. 5.)
On May 7, 2015, the Court entered an Order (1) dismissing Defendant’s counterclaim
pursuant to Federal Rule of Civil Procedure 41(b) and the Court’s inherent authority to
manage its docket and (2) directing the Clerk to enter default against Defendant for
failing to defend this action and her “repeated failures to comply with the Court’s rules
and Orders[.]”2 (D.E. 35 (citing Betty K Agencies. Ltd, v. M/V MONADA. 432 F.3d
1333, 1337 (11th Cir. 2005); Hildebrand v. Honeywell. Inc.. 622 F.2d 179, 181 (5th Cir.

Although they are proceeding pro se, both parties have law degrees. Plaintiff is a
member in good standing of the Florida Bar Association. See The Florida Bar Association,
www.floridabar.org, Find a Lawyer, Roy Lustig (last visited Dec. 1, 2015). Defendant has been
disbarred in Florida, see The Florida Bar Association, www.floridabar.org, Find a Lawyer,
Barbara Stone Kipnis (last visited Dec. 1, 2015), and her status with the New York Bar is listed
as “Delinquent,” see New York State Unified Court System, Attorney Detail for Barbara S.
Kipnis, www.nycourts.gov (last visited Dec. 1, 2015) (a copy of Defendant’s Attorney Detail as
of March 6, 2015 can be accessed at D.E. 14-2).
It bears noting that Defendant’s failures to comply with the Court’s rules and
Orders did not stop on May 7, 2015. (See, e.g., D.E. 39, 49, 60.)
2

Case l:15-cv-20150-JAL Document 64 Entered on FLSD Docket 12/07/2015 Page 3 of 15

1980).) The same day, the Court entered an Order referring the case to Magistrate Judge
Jonathan Goodman for a determination of damages. (D.E. 37.)
On May 19, 2015, Judge Goodman issued an Order scheduling an evidentiary
hearing on damages for July 8, 2015 at 10:00 AM. (D.E. 42.) On June 25, 2015, Plaintiff
filed a motion to continue the evidentiary hearing until the afternoon of July 8, 2015.
(D.E. 50.) On June 25, 2015, Judge Goodman entered an Order granting the motion to
continue and rescheduling the evidentiary hearing for July 8, 2015 at 2:30 PM. (D.E. 51.)
On July 8, 2015, Judge Goodman entered a paperless minute entry indicating that
Defendant failed to appear at the evidentiary hearing. (D.E. 52.)
On August 18, 2015, Judge Goodman issued his Report, recommending that the
Court (1) award Plaintiff $700,000 in compensatory damages and $1 million in punitive
damages, and (2) enter injunctive relief. (Report at 17-18.) With respect to the injunctive
relief, Judge Goodman found:
Stone has shown through her conduct a single-minded intent to
destroy Lustig professionally and personally. As such, the Undersigned
finds that the damage awards recommended above are insufficient to
provide Lustig with a complete remedy for Stone’s defamation. In
particular, the Undersigned notes that none of Stone’s defamatory internet
postings about Lustig have been taken down and they continue to damage
his reputation and may cause him to lose additional business beyond the
one $200,000 case he already lost as a result of the postings.
Accordingly, the Undersigned recommends that Stone be (1) ordered
to cause the internet postings found in Trial Exhibits 1, 2, 3, 5, 19, 25, and
30 to be taken down immediately, and (2) permanently enjoined from
continued or repeated publishing of the statements contained in those Trial
Exhibits.

3

Case l:15-cv-20150-JAL Document 64 Entered on FLSD Docket 12/07/2015 Page 4 of 15

(Id. at 17.) Defendant filed Objections to the Report on August 31, 2015. (D.E. 59.)
Two days later, on September 2, 2015, Defendant filed her “Emergency” Motion. (D.E.
61.)

The Court will address the issues raised in the Motion before turning to the

Objections.
II.

Discussion
a.

Defendant’s “Emergency” Motion

On September 2, 2015—two days after Defendant filed her Objections—
Defendant filed an omnibus motion titled: “Emergency Motion for Leave to File
Objections to Magistrate’s Report, Motion for Leave to File Answer and Affidavits,
Motion to Set Aside Entry of Default, Answer, Motion for Admission Pro Hac Vice &
Supporting Documentation by Mail to Provide Local Counsel Additional Time. (D.E.
61.) Local Rule 7.1(e) provides that the Court may, “upon written motion and good
cause shown,” waive the normal time requirements for responses and replies “and grant
an immediate hearing on any matter requiring such expedited procedure.” S.D. Fla. L.R.
7.1(e). “The motion shall set forth in detail the necessity for such expedited procedure
and

be

accompanied

by

the

form

available

on

the

Court’s

website

(www.flsd.uscourts.gov).” Id Although Defendant titled her Motion an “Emergency”
motion, she neither detailed the necessity for expediting the motion procedure nor
accompanied the Motion with the required form. Accordingly, the Court did not treat it
as an “emergency” motion.

4

Case l:15-cv-20150-JAL Document 64 Entered on FLSD Docket 12/07/2015 Page 5 of 15

1.

Motion for Leave to File Objections

The Court denies the Motion’s request for leave to file objections to Judge
Goodman’s R&R. Defendant has already filed Objections, (see D.E. 59), and she has
cited no authority holding that a party is permitted to file multiple Objections to an R&R.
Furthermore, a second set of Objections would be untimely. Pursuant to Federal Rule of
Civil Procedure 72(a) and 28 U.S.C. § 636(b)(1), a party is provided fourteen days in
which to file objections to a magistrate judge’s report and recommendation. Defendant’s
Motion was filed fifteen days after Judge Goodman issued his Report and
Recommendation. Accordingly, Defendant’s request to file a second set of objections is
denied as procedurally improper and untimely.

The Court will address Defendant’s

timely-filed Objections in Section 11(b), infra.
2.

Motion for Admission Pro Hac Vice

Next, the Court denies the Motion’s request to admit attorney Candice Schwager
pro hac vice because it fails to comply with the Special Rules Governing the Admission
and Practice of Attorneys (“Special Rules”). Rule 4(b)(3) of the Special Rules requires
the motion to
designate a member of the bar of this Court . . . who is authorized to file
through the Court’s electronic filing system, with whom the Court and
opposing counsel may readily communicate regarding the conduct of the
case, upon whom filings shall be served, and who shall be required to
electronically file all documents and things that may be filed electronically,
and who shall be responsible for filing documents in compliance with the
CM/ECF Administrative Procedures.

5

Case l:15-cv-20150-JAL Document 64 Entered on FLSD Docket 12/07/2015 Page 6 of 15

The Motion designates Marc J. Soss as local counsel, but Mr. Soss is not a member in
good standing of the bar of the Southern District of Florida.3 Accordingly, Defendant’s
request to admit Ms. Schwager pro hac vice is denied for failure to comply with the
applicable rules.
3.

Motion to Set Aside Default

Next, the Court denies the Motion’s request to set aside default. The Eleventh
Circuit has stated that if a “party willfully defaults by displaying either an intentional or
reckless disregard for the judicial proceedings, the court need make no other findings in
denying relief.”

Compania Interamaericana Export-Import,

S.A. v. Compania

Dominicana, 88 F.3d 948, 951-52 (11th Cir. 1996). Moreover, when “a litigant has been
given ample opportunity to comply with court orders but fails to effect any compliance,
the result may be deemed willful.” Id at 952.

The Court finds that Defendant has

willfully defaulted. See Order Directing Clerk to Enter Default, D.E 35 (finding that
Defendant’s repeated failures to comply with Court orders warranted dismissal of her
counterclaim and the entry of default against her). Nor has she otherwise shown good
cause to set aside default under Federal Rule of Civil Procedure 55(c). See id. at 951-52.
Therefore, Defendant’s request to set aside default is denied.
Mr. Soss’s status with the bar of the Southern District of Florida is “fee
delinquent.” Pursuant to Administrative Order 2012-004, a fee delinquent attorney “shall no
longer be in good standing with this Court and as a result cannot practice before this court.” In
re: Attorney Admission Renewal Fee for Retention of Membership in the Bar of This Court at 3,
Admin. Order 2012-004 (Jan. 30, 2012) (citing S.D. Fla. Att’y Admis. & Prac. R. 3)). “Those
attorneys will no longer be able to file documents through the CMECF system . . . until such
time as they comply with this renewal requirement by paying the renewal fee.” Id Although the
Motion alleges that “Mr. Soss is immediately in the process of renewing and expects this will
take a matter of days,” (Mot. at 1), the Motion was filed over three months ago and Mr. Soss is
still fee delinquent. Accordingly, he is not a member in good standing of the bar of this Court.
6

Case l:15-cv-20150-JAL Document 64 Entered on FLSD Docket 12/07/2015 Page 7 of 15

4.

Motion for Leave to File an Answer and Affidavits

Because the Court denies Defendant’s request to set aside default, it denies as
moot Defendant’s request for leave to file an answer and affidavits.
Accordingly, Defendant’s “Emergency” Motion is denied in toto. The Court now
turns to Defendant’s timely-filed Objections. (D.E. 59.)
b.

Defendant’s Objections to the Report and Recommendation

Liberally construing Defendant’s original Objections to Judge Goodman’s Report,
(D.E. 59), Defendant argues that (1) she was not provided notice of the damages hearing
and entering judgment would therefore violate due process, and (2) the Court lacks
subject matter jurisdiction over this action. (D.E. 59

1, 5.)4 Defendant does not object

to the amount of damages or the injunctive relief recommended in the Report.
Upon receipt of the Magistrate Judge’s Report and Movant’s Objections, the Court
must “make a de novo determination of those portions of the report or specified proposed
findings or recommendations to which objection is made.” 28 U.S.C. § 636(b)(1); accord
Fed. R. Civ. P. 72(b)(3). The court must conduct a de novo review of any part of the
Report that has been “properly objected to.” Fed. R. Civ. P. 72(b)(3); see 28 U.S.C. §
636(b)(1) (providing that the district court “shall make a de novo determination of those
portions of the [R & R] to which objection is made”). “Parties filing objections to a
magistrate’s report and recommendation must specifically identify those findings
objected to. Frivolous, conclusive, or general objections need not be considered by the
Defendant also raises other issues in her Objections that are completely unrelated
to the issue of damages—which is the only issue remaining in this case—and which the Court
will not address.
7

Case l:15-cv-20150-JAL Document 64 Entered on FLSD Docket 12/07/2015 Page 8 of 15

district court.” Marsden v. Moore. 847 F.2d 1536, 1548 (11th Cir. 1988). The Court
“may accept, reject, or modify, in whole or in part, the findings or recommendations
made by the magistrate judge.” 28 U.S.C. § 636(b)(1).
1.

Due Process

First, Defendant argues that she was not provided notice of the damages hearing
and entering judgment would therefore violate due process. (Obj. f 5.) Pursuant to
Section 2C of the Case Management Electronic Case Filing (“CM/ECF”) Administrative
Procedures for the Southern District of Florida, pro se litigants are served and noticed by
United States mail.5 Pursuant to Local Rule 11.1(g), pro se parties are responsible for
maintaining current contact information with the Clerk of Court.
[A] party appearing pro se shall conventionally file a Notice of Current
Address with updated contact information within seven (7) days of a
change. The failure to comply shall not constitute grounds for relief from
deadlines imposed by Rule or by the Court. All Court Orders and Notices
will be deemed to be appropriately served if directed either electronically or
by conventional mail consistent with information on file with the Clerk of
Court.
S.D. Fla. L.R. 11.1(g) (emphasis added).
On March 2, 2015, Defendant made her first appearance in this case by filing a
Motion to Dismiss which included a signature block listing an address of 244 Fifth
Avenue #B296, New York, New York 10001 (the “New York address”). (D.E. 12 at 5.)
This New York address became Defendant’s address of record to which all motions,
orders, and other filings were mailed.

Pro se litigants may also be served and noticed in person or, if agreed, by
facsimile or e-mail. CM/ECF Admin. Proc. § 2(c).
8

Case l:15-cv-20150-JAL Document 64 Entered on FLSD Docket 12/07/2015 Page 9 of 15

On May 7, 2015, Defendant filed an Affidavit stating that she is a resident of
Broward County, Florida, but did not include an address. (D.E. 38 at 2.) On May 8,
2015, Judge Goodman ordered Plaintiff to mail to Defendant “copies of all submissions
he makes in this case (and all hearing and trial notices) until such time as an attorney files
a notice of appearance on Ms. Stone’s behalf.”6 (D.E. 39.) On May 19, 2015, Judge
Goodman entered an Order scheduling the damages hearing for July 8, 2015 at 10:00

am.

(D.E. 42.) The Notices of Electronic Filing (“NEFs”) for these orders indicate that they
were mailed to Defendant’s New York address, which was Defendant’s address of
record.
On June 2, 2015, Defendant filed a second Motion to Dismiss which included a
signature block listing—for the first time—an address of 101 N. Ocean Drive #752,
Hollywood, Florida 33019 (the “Hollywood address”). (D.E. 45 at 6.) The Hollywood
address became Defendant’s address of record on June 2, 2015, and became the address
to which all subsequent filings on the docket were mailed.
On June 25, 2015, Plaintiff filed a motion to reschedule the evidentiary hearing on
damages for the afternoon of July 8, 2015. (D.E. 50.) Therein, Plaintiff certified that he
mailed a copy of the motion to Defendant at the Hollywood address. (Id at 3.) The NEF

Judge Goodman’s Order requiring Plaintiff to mail hardcopies of all motions and
notices to Defendant was prompted by Defendant’s allegation that her “email account was
hacked,” for which she allegedly filed a complaint with the FBI. (Aff. of Barbara Stone, D.E. 38
at 2.) She blamed this email hack for her failure to receive notice of a teleconference with Judge
Goodman and her subsequent failure to appear at the teleconference. (Id) The Notice of
Electronic Filing (“NEF”) indicates that a hardcopy notice of the teleconference was mailed to
Defendant at the New York address on April 22, 2015, via the U.S. Postal Service. (See D.E.
19.)
9

Case l:15-cv-20150-JAL Document 64 Entered on FLSD Docket 12/07/2015 Page 10 of 15

for this motion indicates that the Court also mailed a copy of the motion to Defendant at
the Hollywood address. On June 25, 2015, Judge Goodman entered an Order continuing
the evidentiary hearing on damages to 2:30 PM on July 8, 2015. (D.E. 51.) The NEF
indicates that Judge Goodman’s Order was mailed to Defendant at the Hollywood
address.
On August 6, 2015, the Clerk entered a Notice of Undeliverable Mail, indicating
that several filings that the Court mailed to Defendant’s Hollywood address were
returned undelivered, including Judge Goodman’s Order of June 25, 2015 continuing the
damages hearing to 2:30 PM on July 8, 2015.7 (D.E. 57.) The Notice of Undeliverable
Mail stated: “US Mail returned for: BARBARA STONE. The Court has not located an
updated address for this party. After two unsuccessful noticing attempts, notices from the
Court will no longer be sent to this party in this case until a correct address is provided. ”
(Id.)

A copy of this Notice was mailed to Defendant at the Hollywood address. No

subsequent filings were returned undelivered.
On August 18, 2015, Judge Goodman issued his Report and Recommendations,
(D.E. 58), a copy of which was mailed to Defendant’s Hollywood address. On August
31, 2015, Defendant filed her Objections to Judge Goodman’s Report, signing her name
above the Hollywood address. (D.E. 59 at 2.)

Three other filings were returned undelivered: (1) the Court’s Order of June 23,
2015 striking Defendant’s second Motion to Dismiss and denying her motion for sanctions, (D.E.
49); (2) Judge Goodman’s July 8, 2015 paperless minute entry regarding the evidentiary hearing
on damages, (D.E. 52), and (3) Judge Goodman’s July 9, 2015 post-evidentiary hearing
Administrative Order, (D.E. 54). The NEFs for each of these filings indicate that each filing was
mailed to Defendant at the Hollywood address.
10

Case 1:15-cv-20150-JAL Document 64 Entered on FLSD Docket 12/07/2015 Page 11 of 15

Because “[a]ll Court Orders and Notices will be deemed to be appropriately served
if directed ... by conventional mail consistent with information on file with the Clerk of
Court,” Defendant is deemed to have received notice of the hearing.

S.D. Fla. L.R.

11.1(g). Defendant’s due process objection is therefore OVERRULED.
2.

Subject Matter Jurisdiction

Second, with respect to the Court’s subject matter jurisdiction, Defendant has
maintained throughout this case that the Parties are not diverse, which was the subject of
Defendant’s first Motion to Dismiss, filed on March 2, 2015.8 (See D.E. 12.) “Federal
courts have limited subject matter jurisdiction, or in other words, they have the power to
decide only certain types of cases.” Morrison v. Allstate Indem. Co., 228 F.3d 1255,
1260-61 (11th Cir. 2000) (citation omitted). “The foundation for federal court diversity
jurisdiction—the power to decide cases between citizens of different states—is Article III
of the United States Constitution.” Smith v. GTE Corp., 236 F.3d 1292, 1299 (11th Cir.
2001) (citing U.S. Const, art. Ill, § 2). This principle is codified at 28 U.S.C. § 1332(a),
which provides, in relevant part, that a district court has jurisdiction over any civil case if
(1) the parties are “citizens of different States” and (2) “the matter in controversy exceeds
the sum or value of $75,000, exclusive of interests and costs.”
“Citizenship is equivalent to ‘domicile’ for purposes of diversity jurisdiction.”
McCormick v. Aderholt. 293 F.3d 1254, 1257 (11th Cir. 2002). “A person’s domicile is
the place of his true, fixed, and permanent home and principal establishment, and to

8

The Court did not have occasion to rule upon the Motion to Dismiss before it
entered default against Defendant.
11

Case l:15-cv-20150-JAL Document 64 Entered on FLSD Docket 12/07/2015 Page 12 of 15

which he has the intention of returning whenever he is absent therefrom.” Id. (citation
and quotation marks omitted). “Citizenship for diversity purposes is determined at the
time the suit is filed.” MacGinnitie v. Hobbs Grp., LLC, 420 F.3d 1234, 1239 (11th Cir.
2005) (citing Harris v. Gamer. 216 F.3d 970, 983 (11th Cir. 2000)). “[A] change of
domicile requires ‘[a] concurrent showing of (1) physical presence at the new location
with (2) an intention to remain there indefinitely. . . .’” McCormick, 293 F.3d at 1257
(quoting Mas v. Perry, 489 F.2d 1396, 1399 (5th Cir. 1974)).9

“The party seeking

diversity jurisdiction has the burden of establishing jurisdiction by a preponderance of the
evidence.” Jones v. Law Firm of Hill & Ponton, 141 F. Supp. 2d 1349, 1354 (M.D. Fla.
2001) (citing Blakemore v. Mo. Pac. R.R. Co., 789 F.2d 616, 618 (8th Cir. 1986)).
Upon a thorough review of the record, the Court concludes that Plaintiff has met
his burden of establishing diversity jurisdiction.

This conclusion is based on the

following evidence in the record:
1) A May 12, 2014 Verified Complaint filed by Defendant in the United States
District Court for the Southern District of New York against, among others,
Plaintiff, Florida Governor Rick Scott, and Florida Attorney General Pam Bondi,
in which Defendant asserts that she “is a resident of the State of New York” and
bases jurisdiction, in part, upon the diversity of the Parties’ citizenship pursuant
to 28 U.S.C. § 1332. See Stone v. Hertz, et al., 14-cv-03478-LAP, D.E. 1 at 8-10
(S.D.N.Y. May 12, 2014), available at D.E. 13-1. She also signs her name above
9

In Bonner v. City of Prichard, 661 F.2d 1206, 1209 (11th Cir. 1981), the Eleventh
Circuit adopted as binding precedent all decisions handed down by the former Fifth Circuit
before October 1, 1981.
12

Case l:15-cv-20150-JAL Document 64 Entered on FLSD Docket 12/07/2015 Page 13 of 15

a New York address and lists New York telephone and facsimile numbers (area
code 212). Id. at 48.
2) A printout of Defendant’s Florida Bar profile, which lists a New York address,
telephone, and facsimile number. (See D.E. 14-1.)
3) A printout of Defendant’s New York Bar profile, which lists a New York address
and telephone number. (D.E. 14-2.)
4) A printout of Defendant’s Real Estate Board of New York profile page, which
lists a New York address and telephone number. (D.E. 14-3.) The profile states
that she “is proud to be one of a select few of the Manhattan real estate brokers to
have achieved designation as a Real Estate Board of New York residential
specialist.”

(Id.)

The printout also includes her Real Estate license, which

includes a New York address.
5) A Verified Complaint filed by Defendant in a different division of this Court on
February 26, 2015—over one month after Plaintiff filed this case—which she
signs above a New York address and telephone number. (D.E. 15-1.)
Plaintiff notes that both the Florida and New York Bar Associations require their
members to designate an official mailing address, and must notify the Bar of any
changes. (Ich at 3-4.) He further notes that New York law has a similar requirement for
real estate salespersons. (Id at 4.)
Simply put, all of the record evidence indicates that at the time this Action was
filed, Defendant was a citizen and domiciliary of New York. Although Defendant was
present in South Florida pursuant to a Miami-Dade County Criminal Court order at the
13

Case l:15-cv-20150-JAL Document 64 Entered on FLSD Docket 12/07/2015 Page 14 of 15

time the Complaint was filed, (Compl.

2), there is no evidence that she intended to

remain here indefinitely, as is required to show a change of domicile. See McCormick,
293 F.3d at 1257. As such, the Court finds that the Parties are citizens of different states
for purposes of exercising diversity jurisdiction pursuant to 28 U.S.C. § 1332.
Additionally, Count III alleges that Defendant interfered with an advantageous business
relationship which caused Plaintiff to lose the opportunity to earn a $100,000 retainer;
thus, the amount in controversy exceeds the jurisdictional threshold of $75,000. See 28
U.S.C. § 1332(b).
Because the Parties are citizens of different states and the amount in controversy
exceeds $75,000, the Court has original jurisdiction of this action pursuant to 28 U.S.C. §
1332. Therefore, Defendant’s subject matter jurisdiction objection is OVERRULED.
Accordingly, it is ORDERED AND ADJUDGED that:
1.

Defendant’s Emergency Motion for Leave to File Objections to
Magistrate’s Report, Motion for Leave to File Answer and Affidavits,
Motion to Set Aside Entry of Default, Answer, Motion for Admission Pro
Hac Vice & Supporting Documentation by Mail to Provide Local Counsel
Additional Time, (D.E. 61), filed September 2, 2015, is DENIED;

2.

The Report of the Magistrate Judge (D.E. 58), issued August 18, 2015, is
ADOPTED;

3.

Final Judgement is hereby ENTERED in favor of Plaintiff Roy Lustig and
against Defendant Barbara Stone in the amount of $1.7 million ($700,000

14

Case l:15-cv-20150-JAL Document 64 Entered on FLSD Docket 12/07/2015 Page 15 of 15

in compensatory damages and $1 million in punitive damages), for which
sum let execution issue;
4.

Defendant Barbara Stone is hereby ORDERED to remove the internet
postings found in Trial Exhibits 1, 2, 3, 5, 19, 25, and 30 and is
PERMANENTLY ENJOINED from continued and repeated publishing
of the statements contained in those Trial Exhibits;

5.

All other pending motions are DENIED AS MOOT; and

6.

This case is now CLOSED.

DONE AND ORDERED in Chambers at Miami, Florida this 7th day of
December, 2015.

JO m A. LENARD
UNITED STATES DISTRICT JUDGE

15

APPENDIX C

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 1 of 55

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 15-20150-CIV-LENARD/GOODMAN
ROY R. LUSTIG,
Plaintiff,
v.
BARBARA STONE,
Defendant.
ORDER ENJOINING DEFENDANT BARBARA STONE FROM MAKING ANY
FURTHER FILINGS WITHOUT FIRST OBTAINING JUDICIAL PERMISSION
THIS CAUSE is before the Court on a sua sponte review of the record. For the
reasons that follow, the Court finds that Defendant Barbara Stone is a vexatious litigant
and enjoins her from making any further filings without first obtaining judicial permission.
I.

Background
According to the Amended Complaint, “[Plaintiff Roy R.] Lustig and [Defendant

Barbara] Stone first crossed paths in connection with a guardianship proceeding initiated
by Stone in” Florida probate court, Judge Michael Genden presiding. (D.E. 5 5.) Lustig
represented Jacqueline Hertz and Blaire Lapides, the successor guardians for Stone’s
mother, Helen Stone, a person who was adjudged to be incompetent. (See id.; see also
D.E. 5-11 at 2.)
As a result of the guardianship proceedings, Stone engaged in a course of conduct
that Magistrate Judge Jonathan Goodman described as evidencing “a single-minded intent

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 2 of 55

to destroy Lustig both professionally and personally.” (Report and Recommendations on
Plaintiffs Damages, D.E. 58 at 17.) For example, Stone published defamatory statements
about Lustig in emails and on the internet, “branding him as a criminal actor, racketeer,
thief, and murderer, among many other things.” (Id. at 14-15.) Stone “also aimed to
destroy Lustig’s personal life by involving his wife and daughter in her vendetta against
Lustig.” (Id at 15.)
In January 2015, Lustig (or “Plaintiff’) sued Stone (or “Defendant”) in this Court
for defamation, intentional infliction of emotional distress, interference with advantageous
business relationship, and injunctive relief. (See Am. Compl., D.E. 5.) The Court’s
jurisdiction was based on diversity of citizenship, as the Amended Complaint alleged that
Lustig was a resident of Florida and that Stone was a resident of New York. (Mi Ifif 1-3.)
Stone, proceeding pro se. moved to dismiss for lack of subject matter jurisdiction, arguing
that the Parties were not diverse. (D.E. 12.)
On March 23, 2015, the Court issued an Order directing the Parties to jointly file,
among other things, a completed form indicating whether they agreed to have a magistrate
judge decide certain issues and a Joint Scheduling Report and Form within thirty days of
the Order. (“Beginning Order,” D.E. 16.) The Parties failed to timely comply with the
Beginning Order, and on April 23,2015, the Court issued an Order to Show Cause directing
the Parties to file the necessary papers on or before April 27, 2015. (D.E. 20.) The Court
stated that “failure to comply with this Order or submit notice of good cause for failure to
comply shall result in dismissal of this action.” (Id.) Lustig responded by informing the
Court that he attempted to comply with the Beginning Order, but Stone was uncooperative
2

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 3 of 55

and unresponsive.

(See D.E. 21.) Therefore, Lustig was required to file the papers

unilaterally. (See id.)
Stone failed to respond to the Court’s April 23, 2015 Show Cause Order; instead,
on April 24, 2015, she filed a “Re-Stated” Motion to Dismiss for Lack of Subject Matter
Jurisdiction. (D.E. 22.)
On April 28, 2015, the Court issued an Order providing Stone until and including
May 6, 2015 to show cause why she did not comply with the Court’s Beginning Order or
the Court’s April 23, 2015 Show Cause Order. (D.E. 24.) The Court warned Stone that
“[fjailure to show good cause for failing to comply with the Court’s Orders may result in
sanctions, including the entry of default against Defendant pursuant to Federal Rule of
Civil Procedure 55.” (Id.)
Stone failed to respond to the Court’s April 28, 2015 Show Cause Order, but made
several other filings. First, on April 30, 2015, she filed a “Counterclaim and Declaratory
Judgment Claim” against Lustig, Jacqueline Hertz, Blaire Lapides, Judge Genden, and
many others. (D.E. 25.)
Next, on May 4, 2015, Stone directed the clerk to file under seal an “Emergency
Application” for an ex parte temporary restraining order and preliminary injunction against
Judge Genden. (D.E. 27.) Therein, Stone asked the Court to enjoin Judge Genden from
holding a contempt hearing in state court. (See id.) The same day, Stone directed the clerk
to file under seal an “Urgent” letter requesting a hearing on her “emergency” application
for a temporary restraining order. (D.E. 28.) For both motions, she failed to comply with
Local Rule 7.1(e) (now Local Rule 7.1(d)), which requires an emergency motion to be
3

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 4 of 55

accompanied by a Certification of Emergency,1 and she failed to comply with Local Rule
5.4(b), which establishes procedures for filing motions under seal. The Court denied both
motions. (D.E. 29.)
Then, on May 5, 2015, Stone filed an “Amended Complaint and Emergency
Application for Temporary Restraining Order & Expedited Hearing on Preliminary
Injunction” naming Judge Genden as the only Defendant. (D.E. 32.) Once again, Stone
failed to certify the emergency in violation of Local Rule 7.1(e). The Court denied the
Emergency Application and struck the Amended Complaint from the record, stating: “This
case is one by Plaintiff Roy Lustig against Stone for defamation per se, intentional
infliction of emotional distress, interference with advantageous business relationship, and
injunctive relief. (See D.E. 5.) Stone’s ‘Amended Complaint’ names only Judge Genden
as a Defendant and is completely irrelevant to this Action.” (D.E. 34.)

i

On December 1, 2015, former Local Rule 7.1(e) was recodified as Local Rule
7.1(d). It provides:
A filer requesting emergency action must include the words “Emergency Motion”
in the title of the motion and must set forth in detail the nature of the emergency,
the date by which a ruling is necessary, and the reason the mling is needed by the
stated date. The unwarranted designation of a motion as an emergency motion may
result in sanctions. The filer must certify that the matter is a true emergency by
including the following certification before the motion’s signature block:
After reviewing the facts and researching applicable legal principles, I certify that
this motion in fact presents a true emergency (as opposed to a matter that may need
only expedited treatment) and requires an immediate ruling because the Court
would not be able to provide meaningful relief to a critical, non-routine issue after
the expiration of seven days. I understand that an unwarranted certification may
lead to sanctions
4

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 5 of 55

Meanwhile, Judge Goodman scheduled a telephonic status conference for May 5,
2015. (D.E. 19.) Stone failed to appear at the telephonic status conference. (See D.E. 31.)
Therefore, Judge Goodman issued an Order to Show Cause stating: “Defense counsel shall
file a memorandum by May 7, 2015, showing cause why counsel did not participate in the
mandatory telephone status hearing that was scheduled on May 5, 2015. Failure to timely
submit a memorandum demonstrating good cause may result in a report and
recommendation that the case be dismissed or in an order imposing other sanctions.” (Id.)
Judge Goodman’s reference to “[djefense counsel” was a scrivener’s error, as Stone was
not represented by counsel at the time2—a fact Judge Goodman later noted, (D.E. 39).
On May 7, 2015, the Court entered an Order Directing the Clerk to Enter Default
Against Defendant Barbara Stone and Dismissing Counterclaim. (“Order of Default,” D.E.
35.) The Order states:
On April 28, 2015, the Court issued an Order (D.E. 28) requiring Defendant,
Barbara Stone, to show cause why she did not comply with the Court’s
Orders of March 23,2015 (D.E. 16) or April 23,2015 (D.E. 20), respectively.
The Court specifically stated: “Failure to show good cause for failing to
comply with the Court’s Orders may result in sanctions, including the entry
of default against Defendant pursuant to Federal Rule of Civil Procedure 55.”
To date, Defendant has failed to respond to the Court’s April 28, 2015, show
cause order. The Court further notes that on May 5, 2015, Magistrate Judge
Jonathan Goodman issued an Order (D.E. 31) requiring Defendant to show
cause why she did not participate in a mandatory telephonic status hearing.

2
The Court later observed: “Although they are proceeding pro se, both parties have
law degrees. Lustig is a member in good standing of the Florida Bar Association. See The Florida
Bar Association, www.floridabar.org, Find a Lawyer, Roy Lustig (last visited Dec. 1,2015). Stone
has been disbarred in Florida, see The Florida Bar Association, www.floridabar.org, Find a
Lawyer, Barbara Stone Kipnis (last visited Dec. 1, 2015), and her status with the New York Bar is
listed as “Delinquent,” see New York State Unified Court System, Attorney Detail for Barbara S.
Kipnis, www.nycourts.gov (last visited Dec. 1, 2015) (a copy of Defendant’s Attorney Detail as
of March 6, 2015 can be accessed at D.E. 14-2).” (D.E. 64 at 2 n.l.)
5

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 6 of 55

To date, she has failed to respond to Judge Goodman’s Order.[3] The Court
further notes that on two occasions now Defendant has instructed the clerk
to file documents under seal without having filed a motion to seal, in
violation of Local Rule 5.4. Additionally, Defendant has on two occasions
filed what she purported to be “emergency” applications for temporary
restraining orders without having filed a Certification of Emergency, in
violation of Local Rule 7.1(e).
The Court finds that Defendant has failed to defend this Action and the entry
of default is appropriate pursuant to Federal Rule of Civil Procedure 55. The
Court further finds that Defendant’s repeated failures to comply with the
Court’s rules and Orders warrants dismissal of her [25] Counterclaim and
Declaratory Judgment, filed May 1, 2015, pursuant to Federal Rule of Civil
Procedure 41(b) and this court’s inherent authority to manage its docket. See
Betty K Agencies. Ltd, v. M/V MONADA. 432 F.3d 1333, 1337 (11th Cir.
2005) (stating that a court’s sua sponte dismissal for failure to comply with
the rules of court may be based on Rule 41(b) or courts “inherent power to
manage its docket”); Hildebrand v. Honeywell. Inc.. 622 F.2d 179, 181 (5th
Cir. 1980) (stating that a court may sua sponte dismiss a case under Rule
41(b)).
Accordingly, it is ORDERED AND ADJUDGED the Clerk shall enter
default against Defendant Barbara Stone. It is FURTHER ORDERED AND
ADJUDGED that that Defendant Barbara Stone’s Counterclaim and
Declaratory Judgment, filed May 1, 2015, is DISMISSED.
(Id.) Later the same day, the Clerk entered Default against Stone, (D.E. 36), and the Court
entered an Order referring the case to Judge Goodman for a determination of damages,
(D.E. 37).
On July 8, 2015, Judge Goodman held an evidentiary hearing on damages. (See
D.E. 52.) Stone failed to appear at the hearing. (See id.)
On August 18, 2015, Judge Goodman issued a Report finding that Stone had
published several defamatory statements that were injurious to Lustig’s reputation and

3
Stone timely responded to Judge Goodman’s Show Cause Order on May 7, 2015
after the Court entered its Order of Default. (See D.E. 38.)
6

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 7 of 55

standing in the community and caused him to lose at least one significant client with a
pending case. (D.E. 58 at 7-8.) Relevant here, Judge Goodman found that Stone
used a fake email account to pose as Lustig and direct threats at Lustig and
his business partner about investigations against their company along with a
homophobic insult at Lustig’s daughter’s boyfriend. (Trial Ex. 8). Stone
used the same account to email Lustig’s business partner again and state that
Lustig was committing “ruthless and unethical acts” and to draw his attention
to the various internet sites where Stone had posted her scurrilous accusations
against Lustig. (Trial Ex. 11). In other emails to Lustig’s business partner
(and Lustig’s wife and daughter), Stone indicated that Lustig had engaged in
“heath insurance fraud [that] will soon be investigated” (Trial Ex. 23), and
that his partner should have a member of the family who is a state attorney
“find out what Roy Lustig is doing!” (Trial Ex. 22)....
Stone also emailed similar accusations against Lustig to scores of individuals
and organizations, including all of the justices of the Florida Supreme Court,
filing complaints with the Florida Bar and many representatives of the
Florida and U.S. governments, and many national and local news
organizations. These emails included claims that Lustig: prepares fraudulent
bills (Trial Exs. 21, 26, 27); changes court transcripts (Trial Ex. 21); makes
“fraudulent court filings” (Trial Ex. 29); is “in a frenzy to empty [Stone’s]
mother’s assets and cause her death to shield and cover up [his] conduct”
(Trial Ex. 21); is a “body snatcher” and “an adult predator and like a child
molester should be barred from involvement with elderly adults” (Trial Exs.
26, 27); is a “diabolical fraudster” (Trial Ex. 26); is a “thug attorney” and a
“habitual liar” engaged in “fraud and lies and embezzlement” (Id.), as well
as “fraud, perjury, extortion and [other] felony crimes” (Trial Ex. 29); and is
“masterminding the criminal racketeering enterprise that is engaged in the
attempted pre-meditated murder of my mother,” while “extort[ing] over
$250,000” from her (Trial Ex. 29)....
. . .. Posing as Lustig, Lustig’s daughter, and others, Stone sent a variety of
emails to Lustig’s daughter, many of which were also sent to Lustig, stating
that Lustig’s daughter: has an ugly nose, face, and “c_nt” (Trial Exs. 7, 9);
should “start playing in a circus” (Trial Ex. 12); is a “little c_nt” and an “ugly
c_nt” (Trial Exs. 12, 15); eats cat food (Trial Ex. 13); and takes drugs (Trial
Ex. 16).
Many of the emails attached pictures of Lustig’s daughter and/or other family
members. (Trial Exs. 12, 13, 14, 15). Stone sent another email to Lustig’s
wife and daughter, with an attached photograph of Lustig’s daughter, stating
7

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 8 of 55

that Lustig’s daughter is stupid and “so ugly like MAMA!” (Trial Ex. 20).
Stone included a photograph of Lustig and his wife in her post on
ripoffreport.com where she accused Lustig of having committed criminal
acts to control disabled elderly persons and take their money. (Trial Ex. 2).
Stone copied Lustig’s wife on another email to Lustig, informing them that
she had posted another new report about Lustig on ripoffreport.com. (Trial
Ex. 17).
(Id. at 8.)

Judge Goodman recommended that the Court award Lustig $700,000 in

compensatory damages, $1 million in punitive damages, and injunctive relief—
specifically, he recommended that the Court order Stone to remove seven defamatory
internet postings and permanently enjoin her from republishing the defamatory statements
contained in those postings. (Id at 17-18.)
On August 31, 2015, Stone filed Objections to Judge Goodman’s Report, arguing
that (1) the Court lacked subject matter jurisdiction because the Parties were not diverse,
and (2) “[n]o due process or evidentiary hearing was provided to the defendant and believe
No Notice of hearing was given to the Defendant.” (D.E. 59 at 1-2.) However, she did not
object to any of the factual findings contained in the Report. (See id.)
On September 2, 2015, Stone (purportedly through counsel)4 filed an “Emergency”
Motion requesting that the Court set aside entry of default and permit her to challenge the
Court’s subject matter jurisdiction. (D.E. 61.) The Motion also sought leave to file a
second set of Objections, and the admission pro hac vice of attorney Candice Schwager.
(See id. at 1.) It is worth noting that although Stone styled her motion as an “emergency,”

4
The Motion contains a signature block for Houston, Texas attorney Candice
Leonard Schwager, but it is not signed.
8

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 9 of 55

she failed to certify that it contained a “true emergency” in violation of Local Rule 7.1(e)
(now Local Rule 7.1(d)).
On December 7, 2015, the Court entered an Omnibus Order denying the request to
set aside default, finding that Stone had willfully defaulted. (“Omnibus Order,” D.E. 64 at
6 (citing Compania Interamaericana Export-Import, S.A. v. Compania Dominicana, 88
F.3d 948, 951-52 (11th Cir. 1996) (concluding that if a “party willfully defaults by
displaying either an intentional or reckless disregard for the judicial proceedings, the court
need make no other findings in denying relief’)).) As an initial matter, the Court denied
Stone’s request to file a second set of Objections as procedurally improper and untimely,
(id. at 5), and denied Ms. Schwager’s request for admission pro hac vice for failure to
comply with the Local Rules, (id. at 6). The Court’s Omnibus Order then overruled Stone’s
Objections to Judge Goodman’s Report. (See id. at 7-14.) Relevant here, the Court
rejected Stone’s argument that entering judgment against her would violate due process
because she was not provided notice of the damages hearing. (Id. at 8-11.) The Court also
rejected Stone’s argument that the Court lacked subject matter jurisdiction, finding that “all
of the record evidence indicates that at the time this Action was filed, Defendant was a
citizen and domiciliary of New York.” (Id. at 13.) And because the amount in controversy
exceeded $75,000, the Court was vested with diversity jurisdiction. (Id. at 14.) Ultimately,
the Court adopted Judge Goodman’s recommendation on damages, entered Final Judgment
in favor of Lustig and against Stone, entered a permanent injunction against Stone, and
closed the case. (Id at 14-15.)

9

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 10 of 55

On January 6, 2016, Stone appealed the Court’s Omnibus Order. (D.E. 72.) On
March 8, 2017, the Eleventh Circuit issued its Mandate affirming the Court’s Judgment,
finding that (1) the Court had subject matter jurisdiction over the case, (Mandate, D.E. 109
at 4), and (2) the Court did not abuse its discretion in denying Stone’s motion to set aside
default:
The record shows that notice was provided to Stone at her New York address,
which was the only address she had provided to the court at the time.
Because Stone was mailed filings at her address of record, she was provided
with notice in a manner reasonably calculated to inform her of the events
pertaining to her case, even if she did not actually receive that notice.
(Id. at 6 (citing Jones v. Flowers. 547 U.S. 220, 226 (2006)).)
On March 21,2017, Lustig filed a Motion for Order to Show Cause Why Defendant
Should not be Held in Contempt, asserting that Stone failed to comply with the Court’s
Omnibus Order by (1) failing to remove the defamatory internet postings and (2)
republishing the statements contained in the internet postings. (D.E. 111 at 2.) The Court
referred the Motion to Judge Goodman, (D.E. 112), who issued a Report and
Recommendations and Certification of Facts, (D.E. 133). Therein, Judge Goodman found
that Lustig had met his initial burden of showing that Stone failed to comply with the
Court’s Omnibus Order, and recommended that the Court order Stone to appear at a hearing
to show cause why she should not be found in contempt. (Id at 6.) The Report provided
the Parties fourteen days to file objections, (id at 7), but no objections were filed.
Consequently, on January 9, 2018, the Court adopted Judge Goodman’s Report and
Recommendation and Certification of Facts, granted Lustig’s Motion for Order to Show
Cause, and scheduled a show cause hearing. (D.E. 138.) The Court later granted Stone’s
10

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 11 of 55

Motion requesting a continuance of the show cause hearing (because she was incarcerated)
and rescheduled the show cause hearing. (D.E. 143.) On June 26, 2018, the Court was
required to continue the show cause hearing a second time. (D.E. 163.) To date, the Court
has not rescheduled the show cause hearing.
On April 16, 2018, Stone filed three pro se “Emergency” Motions to Produce
Documents, (D.E. 144, 146, 147), and a pro se “Emergency” Motion to Quash Subpoena,
(D.E. 145). The Court later denied those motions, finding:
The Motions associated with Docket Entries [145], [146], and [147] are
related solely to the Parties’ state court case, and request relief this Court is
without jurisdiction to grant. The issues raised in the Motion associated with
Docket Entry [144] may be partially related to this case, but involve moot
issues. Specifically, Defendant complains of an “illegal sale” sought by
Plaintiff. This may be a reference to Plaintiffs [126] Motion for Partial
Enforcement of Money Judgment by Judicial Sale of Personal Property, in
which Plaintiff seeks to enforce the Court’s judgment by ordering the sale of
Plaintiffs interest in two LLCs. Upon a [135] Report and Recommendation
from the Magistrate Judge, the Court denied that Motion without prejudice
for failure to satisfy the requirements of Section 605.0503(4), Florida
Statutes. (D.E. [137].) Accordingly, assuming arguendo that this is the
“illegal sale” Defendant references, the Court has denied Plaintiff’s Motion
and that issue is now moot. To the extent Defendant is referring to a different
“illegal sale,” it concerns an issue over which this Court is without
jurisdiction.
(D.E. 150.) It is also worth noting that Stone failed to certify that any of these “emergency”
motions contained a “true emergency,” in violation of Local Rule 7.1(d).
On April 16, 2018, Stone also filed a pro se Motion to Vacate Judgment. (D.E.
148.) Stone first argued that the Court should vacate judgment under Rule 60(b)(3) on the
grounds that the judgment was procured by fraud, misrepresentation, or the misconduct of
Lustig—specifically, she asserted that she did not send the “obscene” emails Judge
11

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 12 of 55

Goodman discussed as part of the basis for the monetary judgment. (D.E. 148 at 2.)
Second, she argued that the Court should vacate the Judgment as void under Rule 60(b)(4)
because she was not present at the damages hearing. (Id at 3, 5.) Finally, she argued that
the Judgment constitutes a gross miscarriage of justice. (Id at 6.)
On April 18, 2018, the Court entered an Order denying the Motion to Vacate
Judgment, finding that: (1) “[t]o the extent that Defendant argues that the judgment was
procured by fraud, misrepresentation, or Plaintiffs misconduct, it is untimely because it
was filed more than two years after the entry of judgment”; and (2) “[t]o the extent that
Defendant argues that the judgment is void or constitutes a gross miscarriage of justice, the
Court finds that it is untimely because it was not ‘made within a reasonable time . . -. after
the entry of the judgment[.]’” (“April 18, 2018 Order,” D.E. 149 (quoting Fed. R. Civ. P.
60(c)(1)).) On May 18,2018, Stone, through newly-retained attorney Arthur J. Morburger,
appealed the Court’s April 18, 2018 Order. (D.E. 158.) On August 7, 2019, the Eleventh
Circuit issued an opinion affirming the Court’s April 18, 2018 Order denying Stone’s
Motion to Vacate Judgment. See Lustig v. Stone, Case No. 18-12106 (11th Cir. Aug. 7,
2019). It found that Stone had failed to brief (and therefore abandoned) the timeliness
issue, but nevertheless found that “the district court did not err in denying her Rule 60(b)(4)
motion as untimely....” Id. at 3. It further found that Stone had “waived her due process
arguments by waiting two years after entry ofjudgment to raise them.” Id at 4. On August
21, 2019, Stone filed a petition for rehearing and rehearing en banc, which the Eleventh
Circuit denied. Mandate issued January 31, 2020. (D.E. 212.)

12

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 13 of 55

Meanwhile, on May 4, 2018, Stone filed a pro se Motion to Vacate Judgment and
to Set Aside Judgment for Fraud on the Court. (D.E. 151.) The Court denied that Motion
without prejudice “to being refiled through counsel if appropriate.” (D.E. 172.)
On July 2,2018, Stone filed a pro se Motion to Cancel Order to Show Cause Hearing
and Declaration of Truth. (D.E. 166.) On July 5,2018, the Court entered an Order striking
that Motion pursuant to Local Rule 11.1 (d)(4), which provides that a party who has an
attorney cannot file pro se motions. (D.E. 167.)
On September 14, 2018, Stone filed a pro se Motion to Disqualify Judge Joan
Lenard and Magistrate Judge Jonathan Goodman and Set Aside, Void and Vacate Their
Illegal Orders. (D.E. 170.) The same day, Stone filed a pro se Motion to Order FBI and
Department of Justice Investigation Into this Matter. (D.E. 171.) On September 17, 2018,
the Court struck those Motions pursuant to Local Rule 11.1(d)(4), which provides that a
party who has an attorney cannot file pro se motions. (D.E. 172.)
On March 13, 2019, Stone, through counsel, filed a Motion for Relief from
Judgment and Default Order, seeking to vacate Judgment under Rules 60(a), 60(b)(4),
60(b)(6), and 60(d)(3). (D.E. 174.) On April 29,2019, the Court entered an Order denying
that Motion. (“April 29, 2019 Order,” D.E. 179.) On May 29, 2019, Stone filed a Notice
of Appeal of the Court’s April 29, 2019 Order. (D.E. 191.) That appeal is currently
pending before the Eleventh Circuit. See Lustig v. Stone, Case No. 19-12112 (11 th Cir.
docketed May 31, 2019).
Meanwhile, on May 8, 2019, Stone, through counsel, filed a Motion for
Disqualification, seeking to disqualify the undersigned Judge from presiding over this
13

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 14 of 55

matter.

(D.E. 180.)

The basis for the motion is that the undersigned allegedly has

“extrajudicial prejudicial knowledge of the parties’ Bar status and of certain extraneous
dehors the record internet disclosures.” (Id at 1.) Lustig filed a Response observing that
“all of the facts cited by Stone as having been obtained extrajudicially are actually part of
the record, having been introduced through various filings by Plaintiff Roy R. Lustig.”
(D.E. 181 at 1.)
On May 17, 2019, Stone filed a Suggestion of Bankruptcy on the docket. (D.E.
182.)

On May 24, 2019, the Court entered an Order staying the case pending the

bankruptcy proceedings, and denying without prejudice all pending motions (and
specifically the Motion for Disqualification). (D.E. 189.)
On November 8,2019, Stone filed a pro se “Emergency Motion to Set Aside Illegal,
Corrupt, VOID Judgment that is the Product of Massive Criminal and Civil Human Rights
Violations; Other Extrajudicial Crimes and Violations of Due Process; and to
Embezzlement; Theft and Other Felony Crimes for which there is No Immunityf, and]
Demand for Jury Trial.” (D.E. 197.) The same day, the Court entered an Order striking
that Motion pursuant to Local Rule 11.1(d)(4), which provides that a party who has an
attorney cannot file pro se motions. (D.E. 198.) Alternatively, the Court struck the Motion
for failure to comply with Local Rule 7.1(d), which requires a party to certify that an
“emergency” motion presents a “true emergency.”5 (Id.]

See supra Note 1.
14

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 15 of 55

On November 19, 2019, Mr. Morburger filed an “Emergency Motion to Withdraw”
which states, in its entirety:
Arthur J. Morburger files this emergency motion to withdraw from
representation of Defendant in the above-styled case in the District Court for
the Southern District of Florida (but is not withdrawing in the pending
Eleventh Circuit appeals) at the request of Defendant Barbara Stone 19 W.
Flagler St. Ste. 404 Miami, FL 33130, as required by the Court.
(D.E. 199.) The address Mr. Morburger provided for Stone is Mr. Morburger’s office
address. (See id.) Mr. Morburger attached to his Motion a “Certification of Emergency
Motion to Withdraw,” which states, in its entirety:
Arthur J. Morburger files this certification of emergency motion to
withdraw as Defendant Barbara Stone has an emergency matter pending sui
juris in the above-styled case in the District Court for the Southern District
of Florida.
(D.E. 199-1.) Lustig filed a Response opposing the Motion to Withdraw. (D.E. 202.)
On November 25, 2019, Stone filed three pro se Motions: (1) an “Emergency
Motion to Supplement to Emergency Motion to Set Aside Intentional Illegal Void Order;
Emergency Motion to Set Aside Illegal Order ‘Striking’ Stone’s Emergency Motion; and
Concurrent Emergency Demand for Jury Trial,” (D.E. 203); an “Emergency Motion to
Transfer this Matter to Federal Law Enforcement; and Concurrent Demand for Jury Trial,”
(D.E. 204); and (3) an “Emergency Motion for Jury Trial,” (D.E. 205). On November 26,
2019, the Court entered an Order striking those motions pursuant to Local Rule 11.1(d)(4),
which provides that a party who has an attorney cannot file pro se motions. (D.E. 206.)
The Court further noted that even if Stone had been authorized to file the Motions, the
Court was without jurisdiction to entertain their merits because they presented issues that
15

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 16 of 55

were before the Eleventh Circuit Court of Appeals in Case Nos. 18-12106 and 19-12112.
(Id.) The Court also noted that the Motions failed to properly certify that they presented
“true” emergencies in violation of Local Rule 7.1(d), and that, in any event, the Court had
reviewed the Motions and found that none of them presented a true emergency. (Id.)
On December 11, 2019, the Court denied Mr. Morburger’s Emergency Motion to
Withdraw. (D.E. 207.) The Court initially noted that the Motion failed to comply with
Local Rule 7.1(d) because it did not set forth in detail the nature of the emergency, the date
by which a ruling is necessary, and the reason the ruling is needed by the stated date, nor
did it certify that the Motion presented a “true emergency.” (Id. at 6.) Regardless, the
Court found no basis for granting leave to withdraw:
At Stone’s direction, Mr. Morburger seeks to withdraw only from these
District Court proceedings. (See Mot. at 1 (requesting to withdraw “from
representation of Defendant in the above-styled case in the District Court for
the Southern District of Florida (but is not withdrawing in the pending
Eleventh-Circuit appeals) at the request of Defendant Barbara Stone”).) It is
clear that the only reason Stone has requested Mr. Morburger to withdraw
(and/or has terminated their legal relationship solely with regard to these
District Court proceedings) is so she will no longer be prohibited by Local
Rule 11.1(d)(4) from filing pro se motions. (See D.E. 199-1.) The Court
finds that this is not a good reason for granting withdrawal, especially
considering that the issues presented by Stone’s pro se motions are currently
before the Eleventh Circuit Court of Appeals in two separate cases and,
therefore, the Court is without jurisdiction to address their merits. See Lustig
v. Stone, Case No. 18-12106 (11 th Cir. Aug. 21,2019); Lustig v. Stone, Case
No. 19-12112-J (11th Cir. November 13,2019). The Court further finds that
Stone’s pro se motions in a closed case that is on appeal greatly prejudice
Lustig who, to avoid default, must file a response to each motion, and greatly
harm the administration of justice. Stone has filed at least thirteen motions
since the Eleventh Circuit issued its Mandate affirming the Court’s Judgment
on March 8, 2017; the time the Court must spend considering and addressing
Stone’s motions in writing could be spent on other cases. Consequently, Mr.
Morburger is not permitted to withdraw as counsel.

16

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 17 of 55

(Id at 6-7.)
The next day, December 12,2019, Stone filed a pro se “Emergency Motion for Jury
Trial to Set Aside Striking of Resubmitted Emergency Motion to Set Aside Illegal, Corrupt
Void Judgment for Which There is No Immunity and Supplement Thereto and to Declare
All Orders and Judgment Entered Herein Illegal and Void.” (D.E. 208.) On December 16,
2019, the Court entered an Order striking that Motion pursuant to Local Rule 11.1(d)(4),
which provides that a party who has an attorney cannot file pro se motions. (D.E. 210.)
The Court further observed that Stone ultimately sought vacatur of the Court’s judgment
and related orders, but those issues were before the Eleventh Circuit in Case Nos. 18-12106
and 19-12112, and the Court was therefore without jurisdiction to entertain the merits of
the Motion. (Id.) The Court also noted that the Motion failed to properly certify that it
presented a “true” emergency in violation of Local Rule 7.1(d), and that, in any event, the
Court had reviewed the Motion and found that it did not present a true emergency. (Id.-)
On May 27, 2020, Stone filed two pro se Motions: (1) an “Emergency Motion [that]
Sets Forth Irrefutable Felony Crimes Perpetrated by Roy R. Lustig in a Criminal RICO to
Obtain Illegal Financial Windfall and Theft of Assets of a Vulnerable Adult in
Combination with Massive Criminal and Civil Human Rights Deprivations and
Obstruction of Justice by Judge Joan Lenard and Magistrate Jonathan Goodman All of
Whom are Using the United States Federal Courts for Illegal Purposes for which they are
not Intended Whereby Immediate Relief is Mandated and Demanded; Motion for ReHearing; Setting Aside Illegal Void Judgment, and other Relief; and Demand for Reporting
of Crimes by Roy R. Lustig and Criminal Restitution; Reparation and Sanctions and for
17

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 18 of 55

Compliance by all Courts, Including Appellate Court with Stone’s Fundamental,
Inalienable Constitutional Rights; Mandate to Report Crimes; and Adherence to
Fundamental Principles Whereby the United States Courts are not Subverted for Illegal
Activities,” (D.E. 217); and (2) an “Emergency Motion to Report Roy L. [sic] Lustig to
Law Enforcement and the Florida Bar and for Restitution, and Criminal Sanctions,” (D.E.
218). On June 2,2020, the Court entered an Order striking those Motions pursuant to Local
Rule 11.1 (d)(4), which provides that a party who has an attorney cannot file pro se motions,
and, alternatively, for noncompliance with the Local Rules. (D.E. 222.) The Court further
observed that Stone ultimately sought vacatur of the Court’s judgment and related orders,
but those issues were before the Eleventh Circuit in Case No. 19-12112 and the Court was
therefore without jurisdiction to entertain the merits of the Motions. (Id.)
On June 22, 2020, Stone filed four pro se documents: (1) “Emergency Declaratory
Judgment Summary Pursuant to Rule 57 and 28 U.S.C. § 2201 Applicable to All
Emergency Declaratory Judgments Filed Concurrently; and Demand for Relief; and
Demand for Joan Lenard and All ‘Officers of the Court’ Involved in this Sordid Scandal to
Comply with the Law and Judicial Canons and Report the Criminal Activities of Roy R.
Lustig Including the Use of Electronic Means to Circulate Obscene Materials to Obtain
Illegal Financial Gain; Perjury and Suborning Perjury; and Theft and Embezzlement of the
Assets of a Vulnerable Adult to Federal and State Law Enforcement for Criminal
Investigation and to the Florida Bar for Discipline/Disbarment,” (D.E. 223); (2)
“Emergency Declaratory Judgment Pursuant to Rule 57 and 28 U.S.C. § 2201 Emergency
Demand for Response by Joan Lenard and Demand for Jury Trial and Relief,” (D.E. 224);
18

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 19 of 55

(3) “Emergency Declaratory Judgment Pursuant to Rule 57 and 28 U.S.C. § 2201 Demand
for Response by Roy R. Lustig,” (D.E. 225); and (4) “Emergency Certification,” (D.E.
226). On June 25,2020, the Court entered an Order striking those filings pursuant to Local
Rule 11.1(d)(4), which provides that a party who has an attorney cannot file pro se motions,
and, alternatively, for noncompliance with the Local Rules.6 (D.E. 227.) To the extent
that Stone was attempting to assert a “declaratory judgment” counterclaim, the Court struck
it as untimely, finding: “This case has been closed since December 7, 2015 when the Court
entered Final Judgment in favor of Plaintiff and against Defendant. (See D.E. [64].) The
Eleventh Circuit issued its Mandate affirming the Courts Judgment on March 8, 2017.
(D.E. [109].) Consequently, the merits of the Parties’ disputes are no longer before the
Court.” (Id.) The Court further observed that Stone ultimately sought vacatur of the
Court’s judgment and related orders, but those issues were before the Eleventh Circuit in
Case No. 19-12112 and the Court was therefore without jurisdiction to entertain the merits
of the Motions. (Id.)
II.

Discussion
Federal district courts have the power under the All Writs Act, 28 U.S.C. § 1651, to

enjoin vexatious litigants from filing actions in both judicial and non-judicial forums,
provided the injunction does not completely foreclose a litigant from any access to the
courts. See Riccard v. Prudential Ins. Co.. 307 F.3d 1277, 1295 n.15, 1298 (11th Cir.
2002); see also Martin-Trigona v. Shaw, 986 F.2d 1384, 1387 (11th Cir. 1993); In re

6

Notably, the “Emergency Certification” failed to comply with Local Rule 7.1 (d)(l),
which is the Local Rule that prescribes what the emergency certification “must” say.
19

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 20 of 55

Hartford Textile Corn., 659 F.2d 299, 305 (2d Cir. 1981) (“The United States Courts are
not powerless to protect the public, including litigants ... from the depredations of those .
.. who abuse the process of the Courts to harass and annoy others with meritless, frivolous,
vexatious or repetitive . .. proceedings.”).
The traditional standards applicable to issuance of an injunction do not apply to the
issuance of an injunction against a vexatious litigant. Klay v. United Healthgroup, Inc.,
376 F.3d 1092,1100-01 (11th Cir. 2004) (“The requirements for a traditional injunction do
not apply to injunctions under the All Writs Act because a court’s traditional power to
protect its jurisdiction, codified by the Act, is grounded in entirely separate concerns.”);
see also Ray v. Lowder. No. 5:02-CV-316-OC-10GRJ, 2003 WL 22384806, at *2 (M.D.
Fla. Aug. 29, 2003) (citing In re Martin-Trigona. 737 F.2d 1254, 1262 (2d Cir. 1984)).
Instead, “[a] history of litigation entailing ‘vexation, harassment and needless burden on
the courts and their supporting personnel’ is enough.” Ray, 2003 WL 22384806, at *2
(citing In re Martin-Trigona. 737 F.2d at 1262).
In making the determination whether the litigant’s conduct is sufficient to
justify the entry of what is referred to as a Martin-Trigona order, the
following factors provide guidance: (1) the litigant’s history of litigation and
in particular whether it entailed vexatious, harassing or duplicative lawsuits,
(2) the litigant’s motive in pursuing the litigation, e.g. does the litigant have
an objective good faith expectation of prevailing, (3) whether the litigant is
represented by counsel, (4) whether the litigant has caused needless expense
to other parties or has posed an unnecessary burden on the courts and their
personnel, (5) whether other sanctions would be adequate to protect the
courts and other parties.

20

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 21 of 55

Id. (citing Safir v. United States Lines, Inc., 792 F.2d 19, 24 (2d Cir. 1986)) (footnotes
omitted). Each of these factors supports a finding that Defendant Barbara Stone is a
vexatious litigant who should be restricted from making further filings.
a.

History of Litigation

First, the Court looks to Stone’s history of litigation in this Court and elsewhere.
Ray, 2003 WL 22384806, at *2 (citing Safir. 792 F.2d at 24). The Court has identified
eighteen separate federal cases in which Stone has, in some way, challenged her mother’s
guardianship proceedings and/or disparaged Roy Lustig (among many others).7 The Court
will discuss them in chronological order below.8
1.

Stone v. Genden. 14-cv-03404-LAP (S.D.N.Y. May 6, 2014)

On May 6, 2014, Stone filed in the United States District Court for the Southern
District of New York a pro se “Ex Parte Emergency Application for a Temporary
Restraining Order and Order to Show Cause why Jacqueline Hertz and Blaire Lapides the
Abusive Guardians for her Mother Should Not be Enjoined Prohibited and Restrained from
Excluding Barbara Stone from Unfettered Association with her Mother.” Stone v. Genden.
et ah. 14-cv-03404-LAP, D.E. 1 (S.D.N.Y. May 6, 2014). She also filed a pro se thirtyfour page complaint (inclusive of exhibits) against six defendants, including Lustig, Hertz,
Lapides, and Judge Genden. Id., D.E. 2. Briefly, the complaint accused the defendants of

7
Two of those cases—Lustig v. Stone. Case No. 4:18-cv-00469-JGZ (D. Ariz. Mar.
20, 2018) and Lustig v. Stone. Case No. 4:18-mc-00004-JGZ-BPV (D. Ariz. Mar. 20, 2018)—are
related and will be discussed under a single heading. See infra Section 11(a)(7).
8
The Court takes judicial notice of the documents filed in the cases discussed below
for the limited purpose of recognizing the filings and judicial acts they represent. See United States
v. Jones. 29 F.3d 1549, 1553 (11th Cir. 1994).
21

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 22 of 55

engaging in an organized enterprise to exploit vulnerable adults, including Helen Stone.
Id. Stone claimed to have been
subjected to fraud, illegal color of law crime, defamation, slander, malicious
prosecution, insults, threats, entrapment and criminal prosecution, extortion,
exploitation, emotional infliction of distress, vilification, malicious and
unlawful interference with her relationship with her mother and financial
hardship delivered viciously and vindictively at the hands of predators in the
Vulnerable Adult Exploitation Enterprise.
Id. at 3-4. On May 8, 2014, Stone withdrew her complaint to be refiled at a later date. Id.,
D.E. 4. On May 13, 2014, the case was dismissed. Id., D.E. 5.
2.

Stone v. Hertz, et aL. 14-cv-03478-LAP (S.D.N.Y. May 12, 2014);
Stone v. Hertz, et al.. Case No. 14-21776-Civ-Williams (S.D. Fla.
May 14,2014)

On May 12, 2014, Stone filed a rambling fifty-page pro se complaint (exclusive of
exhibits) against twelve defendants—including Lustig, Hertz, Lapides, Judge Genden, the
State of Florida, then-Florida Governor Rick Scott, and then-Florida Attorney General Pam
Bondi—in the United States District Court for the Southern District of New York. Stone
v. Hertz, et al.. 14-cv-03478-LAP (S.D.N.Y. May 12, 2014). On May 14, 2014, the case
was transferred to the Southern District of Florida and assigned to Judge Williams. Stone
v. Hertz, et al.. 14-21776-Civ-Williams, D.E. 4 (S.D. Fla. May 14, 2014).

Stone

subsequently filed a rambling seventy-page pro se Amended Complaint (exclusive of
exhibits, which were another 318 pages) which challenges the legality of her mother’s
guardianship proceedings, accuses all of those involved of wrongdoing, and compares her
mother’s guardianship to the Holocaust. Id., D.E. 10 at 20. After Judge Williams denied
Stone’s pro se “emergency” Motion for a hearing and an injunction, see id, D.E. 23, Stone
22

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 23 of 55

filed a pro se “emergency” motion for Judge Williams’s recusal, id, D.E. 32. Stone filed
at least three other pro se “emergency” motions in that case, see id., D.E. 16, 38, 57, all of
which were either denied or denied as moot, see id., D.E. 19, 76. Stone also filed an
emergency petition to the Eleventh Circuit for a writ of mandamus in which she asked the
court to, inter alia:
(1) compel a Florida court and Florida judicial officials to render void an
[sic] probate judge’s order barring her from visiting her elderly mother in a
health facility; (2) release her from the “false imprisonment” imposed after
she had violated the order; (3) order both state and federal judicial officials
to prosecute the individuals who had abused her mother under the guise of a
court-ordered guardianship; (4) order the Florida State Bar to suspend or
revoke the law license of one of the offending individuals; and (5) adjudicate
a Florida state attorney guilty of fraud and perjury.
See id., D.E. 66. The Eleventh Circuit denied the petition. See id. Judge Williams
ultimately dismissed most of Stone’s claims with prejudice, id,, D.E. 76. Although Judge
Williams provided Stone leave to file a Second Amended Complaint against two
defendants solely as to malpractice and breach of fiduciary duty claims, id at 21, Stone
failed to file a Second Amended Complaint.
3.

Stone v. Scott, et al.. Case No. 14-23318-Civ-Scola (S.D. Fla. Sept.
8, 2014)

On September 8, 2014, Stone filed a rambling thirty-five page pro se “Emergency
Verified Complaint and Emergency Injunction” (inclusive of exhibits) against then-Florida
Governor Rick Scott, then-Florida Attorney General Pam Bondi, and several others. Stone
v. Scott, et al.. Case No. 14-23318-Civ-Scola, D.E. 1 (S.D. Fla. Sept. 8,2014). In that case,
Stone appears to allege that as a result of actions Stone took in her mother’s guardianship
proceedings, the defendants discriminated and retaliated against Stone. See id One of the
23

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 24 of 55

stated bases for the Court’s jurisdiction was the federal statute prohibiting genocide, 18
U.S.C. § 1091. Id at 2. On September 17, 2014, Judge Scola sua sponte dismissed the
Complaint on several grounds, including failure to state a claim under Rule 12(b)(6) and
28 U.S.C. § 1915(e), finding that Stone’s “claims are fantastical and delusional.” Id, D.E.
15.
4.

Lustig v. Stone, 15-20150-Civ-Lenard (S.D. Fla. Jan. 15, 2015)

On January 15, 2015, Lustig instituted the instant lawsuit against Stone. (D.E. 1.)
Although Stone is the Defendant in this case, she attempted to file a rambling sixty-page
pro se Counterclaim (exclusive of exhibits) against Lustig, Hertz, Lapides, Judge Genden,
the State of Florida, the Florida Bar Association, and many others. (D.E. 25.) Broadly
speaking, the Counterclaim accuses the defendants of fraud, racketeering, and engaging in
a criminal enterprise in regard to her mother’s guardianship proceedings. (See id) The
Court dismissed the Counterclaim upon finding that Stone willfully defaulted. (D.E. 35.)
Stone also attempted to file an “Amended Complaint and Emergency Application
for Temporary Restraining Order & Expedited Hearing On Preliminary Injunction” naming
Judge Genden as the lone defendant. (D.E. 32.) The Court entered an Order striking the
Amended Complaint, observing: “This case is one by Plaintiff Roy Lustig against Stone
for defamation per se, intentional infliction of emotional distress, interference with
advantageous business relationship, and injunctive relief. (See D.E. 5.) Stone’s ‘Amended
Complaint’ names only Judge Genden as a Defendant and is completely irrelevant to this
Action.” (D.E. 34.)

24

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 25 of 55

On December 7, 2015, the Court entered Final Judgment in favor of Lustig and
against Stone, ordered Stone to remove the defamatory statements from the internet,
permanently enjoined her from continuing to publish or republishing the defamatory
statements, and closed the case. (D.E. 64.) The Eleventh Circuit subsequently affirmed
the Court’s Judgment. (D.E. 109.)
Stone later filed a Motion to Vacate Judgment, (D.E. 148), which the Court denied,
(D.E. 149). The Eleventh Circuit subsequently affirmed the Court’s Order denying Stone’s
Motion to Vacate Judgment. Lustig v. Stone, Case No. 18-12106 (11th Cir. Aug. 7, 2019).
Stone also filed a Motion for Relief From Judgment and Default Order, (D.E. 174),
which the Court denied, (D.E. 179). Stone has appealed that Order. Lustig v. Stone, Case
No. 19-12112 (11th Cir. May 31, 2019).
Stone has also filed numerous other motions and papers, all of which were meritless
and utterly frivolous. (See, e.g., D.E. 170 (“Motion to Disqualify Judge Joan Lenard and
Magistrate Judge Jonathan Goodman and Set Aside, Void and Vacate Their Illegal
Orders”); D.E. 171 (“Motion to Order FBI and Department of Justice Investigation into
this Matter”); D.E. 180 (“Motion for Disqualification”); D.E. 197 (“Emergency Motion to
Set Aside Illegal, Corrupt VOID Judgment that is the Product of Massive Criminal and
Civil Human Rights Violations; Other Extrajudicial Crimes and Violations of Due Process;
and Criminal Acts as Accomplices and Accessories to Embezzlement; Theft and Other
Felony Crimes for Which there is no Immunity”); D.E. 203 (“Emergency Supplement to
Emergency Motion to Set Aside Intentional Illegal Void Order; Emergency Motion to Set
Aside Illegal Order ‘Striking’ Stone’s Emergency Motion; and Concurrent Emergency
25

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 26 of 55

Demand for Jury Trial”); D.E. 204 (“Emergency Motion to Transfer this Matter to Federal
Law Enforcement”); D.E. 205 (“Emergency Motion for Jury Trial”); D.E. 208
(“Emergency Motion for Jury Trial to Set Aside Striking of Resubmitted Emergency
Motion to Set Aside Illegal, Corrupt Void Judgment for which there is No Immunity and
Supplement Thereto and to Declare All Orders and Judgment Entered Herein Illegal and
Void”); D.E. 217 (“Emergency Motion [that] Sets Forth Irrefutable Felony Crimes
Perpetrated by Roy R. Lustig in a Criminal RICO to Obtain Illegal Financial Windfall and
Theft of Assets of a Vulnerable Adult in Combination with Massive Criminal and Civil
Human Rights Deprivations and Obstruction of Justice by Judge Joan Lenard and
Magistrate Jonathan Goodman All of Whom are Using the United States Federal Courts
for Illegal Purposes for which they are not Intended Whereby Immediate Relief is
Mandated and Demanded; Motion for Re-Hearing; Setting Aside Illegal Void Judgment,
and other Relief; and Demand for Reporting of Crimes by Roy R. Lustig and Criminal
Restitution; Reparation and Sanctions and for Compliance by all Courts, Including
Appellate Court with Stone’s Fundamental, Inalienable Constitutional Rights; Mandate to
Report Crimes; and Adherence to Fundamental Principles Whereby the United States
Courts are not Subverted for Illegal Activities”); D.E. 218 (“Emergency Motion to Report
Roy L. [sic] Lustig to Law Enforcement and the Florida Bar and for Restitution, and
Criminal Sanctions”); D.E. 223 (“Emergency Declaratory Judgment Summary Pursuant to
Rule 57 and 28 U.S.C. § 2201 Applicable to All Emergency Declaratory Judgments Filed
Concurrently; and Demand for Relief; and Demand for Joan Lenard and All ‘Officers of
the Court’ Involved in this Sordid Scandal to Comply with the Law and Judicial Canons
26

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 27 of 55

and Report the Criminal Activities of Roy R. Lustig Including the Use of Electronic Means
to Circulate Obscene Materials to Obtain Illegal Financial Gain; Perjury and Suborning
Perjury; and Theft and Embezzlement of the Assets of a Vulnerable Adult to Federal and
State Law Enforcement for Criminal Investigation and to the Florida Bar for
Discipline/Disbarment”); D.E. 224 (“Emergency Declaratory Judgment Pursuant to Rule
57 and 28 U.S.C. § 2201 Emergency Demand for Response by Joan Lenard and Demand
for Jury Trial and Relief’); D.E. 225 (“Emergency Declaratory Judgment Pursuant to Rule
57 and 28 U.S.C. § 2201 Demand for Response by Roy R. Lustig”).
This case has also spawned litigation in the District of Arizona, where Lustig sought
to execute this Court’s Judgment upon assets Stone owns in Arizona, and several cases
involving Stone in the United States Bankruptcy Court in the District of Arizona and the
Southern District of Florida. Stone exhibits the same erratic behavior in those cases, which
will be discussed in their chronological order below. (See infra Section 11(a)(7) -(H).)
5.

Stone v. Brennan, et al., Case No. 15-20810-Civ-Altonaga (S.D.
Fla. Feb. 27,2015)

On February 27, 2015, Stone filed a rambling fifty-seven-page pro se Complaint
(inclusive of exhibits) against then-Assistant State Attorney Annette del Aquila, and thenstate court Judge Victoria Brennan. Stone v. Brennan, et al.. Case No. 15-20810-CivAltonaga, D.E. 1 (S.D. Fla. Feb. 27,2015). Like the complaint in Case No. 14-23318-CivScola, the complaint in Case No. 15-20810-Civ-Altonaga based its jurisdiction in part on
the federal statute prohibiting genocide, 18 U.S.C. § 1091. Id, D.E. 1 at 2. The complaint
accuses Ms. del Aquila of obstructing justice, perjury, and failing to investigate Stone’s
27

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 28 of 55

report of elder abuse against her mother. See id at 7-9. It accuses Judge Brennan of
obstructing justice, conspiring with the state attorney, tampering with evidence, and
denying Stone a hearing regarding her mother’s alleged abuse. See id at 9-11. On March
9, 2015, Judge Altonaga dismissed the complaint for failure to state a claim pursuant Rule
12(b)(6) and 28 U.S.C. § 1915(e), on immunity grounds, and for lack of subject matter
jurisdiction. Id, D.E. 6.
6.

Stone v. Genden, et al.. Case No. 15-61004-Civ-Zloch (S.D. Fla.
May 14, 2015)

On May 14, 2015—one week after this Court entered default against Stone and
dismissed her Counterclaim—Stone filed a rambling fifty-five-page pro se complaint
(inclusive of exhibits) against Judge Genden, Lustig, Hertz, Lapides, and others. Stone v.
Genden. et al.. Case No. 15-61004-Civ-Zloch, D.E. 1 (S.D. Fla. May 14, 2015). Briefly,
the complaint challenges Judge Genden’s authority to preside over the guardianship
proceedings and seeks an injunction against all of the defendants named therein. See id.
The complaint was followed by a thirty-four-page “emergency” motion for a temporary
restraining order filed by attorney Candice Schwager appearing pro hac vice on Stone’s
behalf, id, D.E. 10, which was stricken by the court, id, D.E. 17. Ms. Schwager then filed
a twenty-page “emergency” motion for a temporary restraining order that included over
two-hundred pages of exhibits. Id, D.E. 18,18-1. The court ultimately denied the motion
for a temporary restraining order. Id, D.E. 50. A magistrate judge also issued a Report
recommending that the Court grant the defendants’ motions to dismiss, but Stone filed a
Notice of Voluntary Dismissal before the Court could rule on the Report. Id, D.E. 64.
28

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 29 of 55

Prior to the voluntary dismissal, Judge Genden moved the court to sanction Stone.
Id., D.E. 46. In the Motion, Judge Genden argued that Rule 11 sanctions were appropriate
due to Stone’s unceasing, frivolous attempts to undermine the state court guardianship
proceedings through federal litigation. Id. at 2-3. Judge Genden sought an order enjoining
Stone from filing any new civil action related to the guardianship proceedings without first
obtaining an order from a District Court Judge that the proposed action states a claim upon
which relief can be granted and is not presented for an improper purpose. Id at 3. On
August 20, 2015, Stone responded to the Motion for Sanctions asserting that “the Court
cannot impose monetary sanctions^ unless a show cause order is first issued prior to
PLAINTIFF’S NOTICE OF VOLUNTARY DISMISSAL, which has not occurred given
that PLAINTIFF files her timely NOTICE OF DISMISSAL prior to any such issuance by
the Court.” Id., D.E. 63 at 8. The same day, Stone filed a Notice of Voluntary Dismissal.
Id., D.E. 64. On August 24, 2015, Judge Zloch entered a Final Order of Dismissal and
closed the case. Id, D.E. 67.
7.

Lustig v. Stone, Case No. 4:18-cv-00469-JGZ (D. Ariz. Mar. 20,
2018);
Lustig v. Stone, Case No. 4:18-mc-00004-JGZ-BPV (D. Ariz. Mar.
20, 2018)

On March 20, 2018, Lustig registered this Court’s Judgment in the United States
District Court for the District of Arizona in two separate cases, seeking to execute the
Judgment upon assets owned by Stone in that District. Lustig v. Stone, Case Nos. 4:18cv-00469-JGZ, 4:18-mc-00004-JGZ-BPV, D.E. 1, 4 (D. Ariz. Mar. 20, 2018).

Judge Genden’s Motion does not request monetary sanctions. (See D.E. 46.)
29

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 30 of 55

After Lustig obtained a writ of garnishment in Case No. 4:18-cv-00469-JGZ, D.E.
5, and writ of execution, id, D.E. 9, Stone began her assault on the legitimacy of the
proceedings. See id, D.E. 17, 20, 25, 31, 32. When the court was not receptive to her
arguments, Stone filed five motions to disqualify United States District Judge Jennifer G.
Zipps, id, D.E. 40, 83, 120, 171, 186, and three motions to disqualify United States
Magistrate Judge Bernardo Velasco, id, D.E. 29, 86, 121. Those motions were denied.
See id.. D.E. 75, 94, 98, 113, 122,200. When the case was reassigned to Magistrate Judge
Eric J. Markovich, id D.E. 146, Stone moved to disqualify him twice, id, D.E. 172, 181.
The first motion was denied, id, D.E. 175, and the second motion was denied as moot
when the case was reassigned to Magistrate Judge Maria Davila, id, D.E. 182. Stone then
moved to disqualify Judge Davila, id, D.E. 193, but the motion was denied, id, D.E. 196.
One of the motions states that Stone filed a criminal complaint against Judge Zipps seeking
to disqualify her and to void her “illegal void order[.]” Id, D.E. 186 at 2. The motion
accuses Judge Zipps of colluding with a magistrate judge, conducting an “illegal ex parte
proceeding,” failing to report the “criminal acts of adverse party, Roy R. Lustig
(‘Embezzler Lustig’) under Judicial Canons,” issuing illegal orders, illegally garnishing
Stone’s social security account, and many other misdeeds. Id at 3-12. On May 15, 2019,
the court stayed the case pursuant to 11 U.S.C. § 362(a)(2) after involuntary bankruptcy
proceedings were instituted against Stone. Id, D.E. 200.
Stone made many similar filings in Case No. 4:18-mc-00004-JGZ-BPV (D. Ariz.
Mar 20, 2018). See D.E. 17, 20 (“Letters from Barbara Stone”); D.E. 24 (“Motion to
Cancel Void and Strike Illegal Writ of Execution”); D.E. 25 (“Emergency Supplement to
30

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 31 of 55

Motion to Vacate, Void, Cancel and Set Aside Illegal Writ of Execution and Emergency
Motion to Turn Matter Over to Federal Law Enforcement”); D.E. 29 (“Objection to
Magistrate Judge and Motion for Mandatory Removal of Magistrate Judge Pursuant to
USC 636”); D.E. 30 (“Emergency Motion to Provide Court Order Ordering Prison to
Arrange Phone Call Regarding the Unnoticed Hearing on July 17, 2018 and Motion for
Court to Establish JPAY Account for Movant to Have Equal Protection of and Access to
Court”); D.E. 31 (“Emergency Motion to Cancel Hearing on July 17, 2018 for Which
Barbara Stone has No Notice”); D.E. 32 (“Motion for Trial by Jury”); D.E. 40 (“Motion
for Disqualification of Judge Jennifer G. Zipps”); D.E. 41 (“Supplement to Emergency
Motion for Removal of and Disqualification of Magistrate Judge Bernardo P. Velasco”);
D.E. 83 (“Second Motion to Disqualify Judge Jennifer Zipps”); D.E. 85 (“Notice,
Objection to Non-Response by Roy R. Lustig to Motion for Disqualification and
Supplement to Preserve Record”); D.E. 86 (“Second Motion for Disqualification of
Magistrate Judge Bernardo Velasco”); D.E. 88 (“Motion to Add Third Parties FBI and
Dept, of Justice”); D.E. 89 (“Motion to Stay Proceeding Pending Resolution of this Matter
by Florida Court Wherein a Motion to Set Aside, Vacate and Void for Fraud on the Court
is Pending”); D.E. 90 (“Motion for Hearing on Motion to Stay Proceeding Pending
Resolution of Motion to Void and Set Order by Florida Court for Fraud on the Court”);
D.E. 91 (“Motion for Telephone Deposition of Roy R. Lustig”); D.E. 92 (“Motion for
Order on Motions for Disqualification of Judge Jennifer Zipps and Magistrate Judge
Bernardo Velasco and to Void Their Orders”). None of these motions were granted.

31

Case l;15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 32 of 55

8.

In re: Barbara Stone, Case No. 4:18-bk-13486-SHG (Bankr. D.
Ariz. Nov. 2, 2018)

On November 2, 2018, Stone initiated a voluntary Chapter 11 bankruptcy
proceeding in the United States Bankruptcy Court for the District of Arizona.

In re:

Barbara Stone. Case No. 4:18-bk-13486-SHG (Bankr. D. Ariz. Nov. 2,2018). In that case,
Stone filed eight “emergency” motions. Id., D.E. 90, 91, 92, 93, 94, 95, 113, 114. On
March 13, 2019, the court granted Lustig’s motions to dismiss. Id, D.E. 121. It appears
that the dismissal rendered Stone’s “emergency” motions moot. See id.. D.E. 129.
9.

Stone v. Lustig, Case No. 4:19-ap-00081-SHG (Bankr. D. Ariz.
Mar. 4, 2019)

On March 4, 2019, Stone instituted an adversary proceeding against Lustig in the
United States Bankruptcy Court for the District of Arizona. Stone v. Lustig. Case No.
4:19-ap-00081-SHG (Bankr. D. Ariz. Mar. 4, 2019). Therein, she accuses Lustig and the
Bankruptcy Trustees of extortion and Hobbs Act Robbery. Id The case was dismissed
when Stone failed to pay the filing fee. Id, D.E. 6, 11.
10.

In re: Barbara Stone. Case No. 19-16164-BKC-LMI (Bankr. S.D.
Fla. May 9,2019)

On May 9, 2019, Mr. Morburger filed an involuntary Chapter 11 bankruptcy
proceeding against Stone claiming “business debts” in the United States Bankruptcy Court
for the Southern District of Florida.10 In re: Barbara Stone. Case No. 19-16164-BKC-LMI,
D.E. 1 (Bankr. S.D. Fla. May 9, 2019). The Court mentions this case solely to highlight
the many pro se “emergency” motions Stone filed in that case, most of which continue

10

The case was later converted to a Chapter 7 bankruptcy. See id.. D.E. 81.
32

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 33 of 55

Stone’s assault on Roy Lustig’s character. See id, D.E. 15, 16, 17, 35, 36, 37, 38, 157,
158, 159, 160, 161, 162, 163. All of those motions were denied. See id., D.E. 21, 22, 42,
43,44, 45, 62, 177, 178.
11.

Stone v. Lustig, Case No. 19-01165-BKC-LMI (Bankr. S.D. Fla.
May 29, 2019)

On May 29, 2019, Stone filed a rambling pro se “emergency” adversary proceeding
against Lustig in the United States Bankruptcy Court for the Southern District of Florida.
Stone v. Lustig. Case No. 19-01165-BKC-LMI, D.E. 1 (Bankr. S.D. Fla. May 29, 2019).
In that case, Stone claims that her “purported debt” to “Fraudster Lustig” is “fraudulent
and must be discharged.” Id at 1. On June 17, 2019, Judge Isicoff issued an Order
providing Stone one week to cure a deficiency in her pleading, id, D.E. 7, but Stone failed
to do so and the case was dismissed, id, D.E. 8.
12.

Stone v. Unidentified Party. Case No. 19-01177-BKC-LMI
(Bankr. S.D. Fla. June 3,2019)

On June 3, 2019, Stone filed a rambling pro se Complaint for Adversary
Proceeding" against an unidentified “purported trustee in bankruptcy” because, among
other reasons, “HE IS VIOLATING HIS MANDATE PURSUANT TO BANKRUPTCY
LAWS; HE IS OPENLY HOSTILE AND PREJUDICE [sic] TO STONE; [and] HE IS
WOEFULLY LACKING GOOD JUDGMENT . . . .” Stone v. Unidentified Party. Case
No. 19-01177-BKC-LMI, D.E. 1 (Bankr. S.D. Fla. June 3, 2019). In particular, Stone
alleges that the trustee “IS PERPETRATING AND ACCOMPANYING FRAUD BY ROY

li

The title of the document, “COMPLAINT FOR ADVERSARY PROCEEDING,”
is preceded by the word “EMERGENCY” which Stone crossed out. Id., D.E. 1 at 1.
33

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 34 of 55

R. LUSTIG, A FRAUDULENT CREDITOR[.]” Id On June 17, 2019, Judge Isicoff
issued an Order providing Stone one week to cure a deficiency in her pleading, id, D.E. 9,
but Stone failed to do so and the case was dismissed, id, D.E. 8.
13.

Stone v. Lustig, Case No. 19-22485-Civ-Moore (S.D. Fla. June 14,
2019)

On June 14,2019, Stone filed a rambling pro se complaint against Lustig—in which
she repeatedly refers to Lustig as “Embezzler Lustig”—seeking to vacate this Court’s
Judgment. Stone v. Lustig. 19-22485-Civ-Moore, D.E. 1 (S.D. Fla. June 14, 2019). The
complaint accuses the undersigned District Judge and Magistrate Judge Jonathan Goodman
of engaging in “criminal acts” and acting as accessories “to an embezzlement scam
masterminded by Embezzler Lustig . . . .” Id. at 2. On January 31, 2020, Chief Judge
Moore dismissed the case for lack of service. Id, D.E. 10.
14.

Stone v. Isicoff, Case No. 19-22527-Civ-Cooke (S.D. Fla. June 18,
2019)

On June 18,2019, Stone filed a rambling pro se. self-styled “Emergency Motion for
Declaratory Relief and Motion for Injunction; Verified Show Cause, RICO, Criminal Acts,
Fraud, Bullying and Denial of Due Process” against United States Bankruptcy Judge Laurel
M. Isicoff. Stone v. Isicoff Case No. 19-22527-Civ-Cooke, D.E. 1 (S.D. Fla. June 18,
2019). Therein, Stone states:
THE CRUX OF ALL MATTERS INCLUDING THE BANKRUPTCY
MATTER IS AN ILLEGAL VOID JUDGMENT OBTAINED BY ROY
LUSTIG THAT IS BEING USED TO EMBEZZLE STONE’S ASSETS
WITH THE ACCOMPANIMENT OF THE BANKRUPTCY COURT
WHO IS ACTING IN ABUSE OF POWER BY PERPETRATING A SHAM
COLOR OF LAW PROCEEDING THAT IS NOT NEEDED AND IS
UNLAWFULLY PROCEEDING INSTEAD OF REMEDIATING THE
34

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 35 of 55

ACTUAL CORE ISSUE BY REQUIRING A CRIMINAL
INVESTIGATION OF THE FALSE AND FRAUDULENT CLAIM OR
TRANSFERRING THE MATTER TO A COURT WITH JURISDICTION.
Id. at 2. Stone asserts that everyone involved is acting unlawfully, and appears to request
that her bankruptcy case be transferred to the District Court where she can litigate her case
against Lustig on the merits. See id at 2-22.
On June 19, 2019, Stone filed an “emergency” motion to consolidate. Id., D.E. 5.
That motion was allegedly signed by Arthur J. Morburger, although it has all of the
hallmarks of a Barbara Stone-penned motion—in fact, although the signature block
includes Mr. Morburger’s name, it includes Barbara Stone’s email address. Id, at 6. Also,
it was filed conventionally through the Clerk’s office (like all of Stone’s pro se filings),
rather than electronically via CMECF (like all of Mr. Morburger’s filings in this case). In
any event, the “emergency” motion seeks to consolidate Case No. 19-22527-Civ-Cooke
with the state court guardianship matter, the bankruptcy case, and the Arizona cases. Id
On October 1, 2019, Judge Cooke issued an Order sua sponte dismissing the
Complaint for failure to state a claim, and because Judge Isicoff enjoys judicial immunity.
Id., D.E. 7. Judge Cooke further found “the Complaint to be frivolous on its face.” Id, at
2.

15.

Stone v. Elmore, etal.. Case No. 19-CV-8264 (CM) (S.D.N.Y. Sept.
4, 2019);
Stone v. Elmore, et al.. Case No. 19-23951-Civ-Martinez (S.D. Fla.
Sept. 6, 2019)

On September 4, 2019, Stone filed a rambling fifty-four-page pro se complaint
(inclusive of exhibits) against Oppenheimer Holdings, each of its Directors, and an
35

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 36 of 55

investment advisor in the United States District Court for the Southern District of New
York. Stone v. Elmore, et al.. Case No. 19-CV-8264 (CM), D.E. 1 (S.D.N.Y. Sept. 4,
2019). The Complaint seeks a “FULL EN BANC PANEL OF JUDGES” due to the
“GRAVE AND EXTRAORDINARY HUMAN RIGHTS VIOLATIONS, PUBLIC
POLICY CONSIDERATIONS AND UNLAWFUL ACTIONS OF GOVERNMENT
OFFICIALS OF ANOTHER STATE[.] ”12 Id. at 2. The first heading of the Complaint
is: “NOTICE OF TOXIC ALLIGATOR SWAMP INFESTATION, CORRUPTION
AND LAWLESS COURTS IN THE STATE OF FLORIDA WHICH BREED A
STATE

OF

FLORIDA

SPONSORED

SERIAL

MURDER,

HUMAN

TRAFFICKING AND WAR CRIMES RACKETERING [sic] ENTERPRISE AND
VICIOUS RETALIATION AND ATTACKS AGAINST PLAINTIFF AND OTHERS
WHO EXPOSE THE FLORIDA TOXIC SWAMPt ]”13 Id. The Complaint attacks the
legality of Florida’s guardianship statute and the legitimacy of Helen Stone’s guardianship
proceedings. See id. at 2-8. It compares Helen Stone’s guardianship to a “war crime” and
the Holocaust. Id at 8 (“NO ONE SHOULD BE SUBJECTED OR HAVE TO LIVE
WITH THESE ATROCITIES ON THE ORDER OF THE THIRD REICH REGIME.”).
On September 17, 2019, the case was transferred to this District. Stone v. Elmore.
Case No. 19-23951-Civ-Martinez, D.E. 4 (S.D. Fla. Sept. 17, 2019). After Judge Martinez
referred the matter to Magistrate Judge Alicia M. Otazo-Reyes for all pretrial proceedings,

12

The typeface is capitalized and bold in the complaint.

13

The typeface is capitalized and bold in the complaint.
36

Case l;15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 37 of 55

id., D.E. 8, Stone filed an “emergency” response indicating that she is “unable to participate
in court matters” because her mother passed away on September 17, 2019, id., D.E. 9 at 1.
She also asserted that “Roy R. Lustig is an unindicted felon” who she believes “had a hand
in Stone’s mother’s death .. ..” Id. at 1.
On November 5,2019, Judge Martinez issued an Order administratively closing the
case and instructing Stone to either file a status report or serve the defendants prior to
December 3, 2019. Id, D.E. 10. To date, Stone has not filed a status report or served the
defendants with process in that case.
16.

Stone v. Isicoff, Case No. 19-24674-Civ-Williams (S.D. Fla. Nov.
12, 2019)

On November 12,2019, Stone filed a rambling pro se “Emergency Petition for Writ
of Prohibition and Demand for Jury Trial to Prohibit Laurel M. Isicoff, an Illegally Acting
Non Article III Judge Who is Disqualified from Acting and to Mandate the Disqualification
of the Disqualified Judge” against United States Bankruptcy Judge Laurel M. Isicoff.
Stone v. Isicoff. Case No. 19-24674-Civ-Williams, D.E. 1 (S.D. Fla. Nov. 12, 2019).
Therein, she “demands” that Chief Judge K. Michael Moore disqualify Judge Isicoff from
Stone’s bankruptcy proceedings, and “report her crimes and massive human rights
violations and those of corrupt magistrate Jonathan Goodman to authorities on Nov. 1,
2019.” Id. at 1. She accuses both Judge Isicoff and Judge Goodman of criminal conduct.
See id. at 2. She accuses Judge Goodman of being “a fake, morally bankrupt, imposter non
judge . . . who should have long ago been removed from the bench”—primarily because
he issued the Report in this case recommending that the Court enter a $1.7 million
37

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 38 of 55

Judgment against her and in favor of Lustig—and of “running a racket whereby kickbacks,
payoffs, grafts and bribes are exchanged.” See id. at 2-3. Stone accuses Judge Isicoff of
“systematically and deliberately” embezzling Stone’s assets. Id at 3.
On November 14, 2019, Judge Williams dismissed the case pursuant to 28 U.S.C.
§ 1915(e) for failure to state a claim. Id, D.E. 7. Judge Williams noted that Stone “has
already filed numerous meritless and often duplicative lawsuits in this district[,]” and
advised Stone that “pro se filings do not serve as an ‘impenetrable shield, for one acting
pro se has no license to harass others, clog the judicial machinery with meritless litigation,
and abuse already overloaded court dockets.’” Id at 2-3 (quoting Patterson v. Aiken, 841
F.2d 386, 387 (11th Cir. 1988)).
17.

Stone v. Nelson Mullins Riley & Scarborough LLP, et al„ Case
No. 3:20-1290-JMC-SVH (D.S.C. Apr. 3, 2020)
Stone v. Nelson Mullins Riley & Scarborough LLP, et al„ Case
No. 20-22346-Civ-Scola (S.D. Fla. Apr. 3,2020)

On April 3, 2020, Stone filed a rambling ninety-four-page pro se Complaint against
twenty defendants—including Florida Governor Ron Desantis, Florida Attorney General
Ashley Moody, a Dade County Judge, and a Broward County Judge—in the United States
District Court for the District of South Carolina.

Stone v. Nelson Mullins Riley &

Scarborough LLP, et al. Case No. 3:20-1290-JMC-SVH, D.E. 1 (D.S.C. Apr. 3, 2020).
Therein, she generally complains of:
AN ORGANIZED RACKETEERING ENTERPRISE WHERE
PROBATE COURT JUDGES, ATTORNEYS AND GUARDIANS ARE
RULING COMPETENT SENIOR CITIZENS INCAPACITATED TO
STRIP THEM OF THEIR CIVIL AND HUMAN RIGHTS . . . THEN
STEALING THEIR ENTIRE ESTATES . . . AND ONCE THEIR
ASSETS ARE EMBEZZLED AND STOLEN, THESE VULNERABLE
38

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 39 of 55

ADULTS ARE PUT ON HIGH DOSES OF TOXIC PSYCHOTROPIC
MEDICATION TO CAUSE THEIR SUDDEN CARDIAC DEATH [.]
THIS IS A PANDEMIC CRISES, A NATIONAL DISASTER THAT
SURPASSES CORONAf.]
Id. at 4.14

She labels Florida’s guardianship framework a “MURDER-FOR-HIRE

RACKET,” id at 26, and a “NAZI-DERIVED ENTERPRISE,” (id at 28), among many
other things.15
On April 17, 2020, Magistrate Judge Shiva V. Hodges issued a Report and
Recommendation finding that venue was not proper in the District of South Carolina and
recommending that the case be transferred to this District. Id, D.E. 8. On April 29, 2020,
Stone filed a document titled: “NOTICE OF OBJECTION TO ILLEGAL VOID
‘REPORT AND RECOMMENDATION’ BY COLOR OF LAW MAGISTRATE
SHIVA HODGES THAT MUST BE SET ASIDE BY A LEGITMATE ARTICLE III
JUDGE.” Id, D.E. 10. The same day, Stone filed an Amended Complaint adding Judge
Hodges as a Defendant. Id D.E. 11. On May 11, 2020, Stone filed an
EMERGENCY MOTION TO DISQUALIFY ALL JUDGES IN THE
UNITED STATES DISTRICT COURT OF SOUTH CAROLINA AND
TRANSFER THE MATTER TO ANOTHER UNITED STATES
DISTRICT COURT WHEREIN THERE ARE NO JUDGES WITH
CONNECTIONS TO ANY OF THE DEFENDANTS; THERE ARE NO
JUDGES WHO ARE MEMBERS OF THE FLORIDA BAR; AND
WHICH DISTRICT JUDGES DO NOT FALL WITHIN THE
APPELLATE JURSIDCTION OF THE 4TH CIRCUIT!,] AND
EMERGENCY
MOTION
FOR
THIS
EMERGENCY
DISQUALIFICATION MOTION TO BE HEARD AND DECIDED BY
A FULL PANEL OF DISTRICT COURT JUDGES IN ANOTHER
JURISDICTION NONE OF WHOM HAVE CONNECTIONS AND/OR
14

The typeface is capitalized and bold in the complaint.

15

The typeface is capitalized and bold in the complaint.
39

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 40 of 55

RELATIONSHIPS WITH ANY OF THE DEFENDANTS AND NONE
OF WHOM ARE MEMBERS OF THE FLORIDA BAR DUE TO THE
INHERENT CONFLICT OF INTEREST [.]
Id., D.E. 14.16 On June 2, 2020, Stone re-filed the same (or virtually the same) motion for
disqualification, to which she attached a “WRIT OF ATTACHMENT ON THE OATH
OF OFFICE AND BOND OF JUDGE MICHELLE CHILDS AND DEMAND FOR
IMPEACHMENT OF JUDGE MICHELLE CHILDS.”17
On June 5, 2020, the case was transferred to the Southern District of Florida and
assigned to Judge Scola. Stone v. Nelson Mullins Riley & Scarborough LLP, et al.. Case
No. 20-22346-Civ-Scola (S.D. Fla. Apr. 3, 2020). The case is currently pending before
Judge Scola.
Summary of history of litigation entailing vexatious, harassing and
duplicative lawsuits
Based on the foregoing, the Court finds that Barbara Stone has engaged in vexatious,
harassing, duplicative litigation. Specifically, Stone has filed at least fourteen separate
lawsuits that all, in some way, directly challenge the state court guardianship proceedings
and disparage all of those involved. See Stone v. Genden, et al., 14-cv-03404-LAP, D.E.
1, 2 (S.D.N.Y. May 6, 2014); Stone v. Hertz, et al.. 14-cv-03478-LAP, D.E. 2 (S.D.N.Y.
May 12, 2014); Stone v. Hertz, et al., 14-21776-Civ-Williams, D.E. 10, 16, 32, 38, 47, 52
(S.D. Fla. May 14, 2014); Stone v. Scott, et al.. Case No. 14-23318-Civ-Scola, D.E. 1, 14,
(S.D. Fla. Sept. 8, 2014); Stone v. Brennan, et al.. Case No. 15-20810-Civ-Altonaga, D.E.

16
17

The typeface is capitalized and bold in the filing.
The typeface is capitalized and bold in the filing.
40

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 41 of 55

1 (S.D. Fla. Feb. 27, 2015); Stone v. Genden. et al.. Case No. 15-61004-Civ-Zloch, D.E.
1, 10, 18 (S.D. Fla. May 14, 2015); In re: Barbara Stone, Case No. 4:18-bk-13486-SHG,
D.E. 90, 91, 92, 93, 94, 95, 113, 114 (Bankr. D. Ariz. Nov. 2, 2018); Stone v. Lustig, Case
No. 4:19-ap-00081-SHG, D.E. 1 (Bankr. D. Ariz. Mar. 4, 2019); Stone v. Lustig. Case No.
19-01165-BKC-LMI, D.E. 1 (Bankr. S.D. Fla. May 29,2019); Stone v. Unidentified Party.
Case No. 19-01177-BKC-LMI, D.E. 1 (Bankr. S.D. Fla. June 3, 2019); Stone v. Lustig.
19-22485-Civ-Moore, D.E. 1 (S.D. Fla. June 14, 2019); Stone v. Isicoff. Case No. 1922527-Civ-Cooke, D.E. 1 (S.D. Fla. June 18, 2019); Stone v. Elmore, et al.. Case No. 19CV-8264 (CM), D.E. 1 (S.D.N.Y. Sept. 4, 2019); Stone v. Elmore. Case No. 19-23951Civ-Martinez, D.E. 1, 9 (S.D. Fla. Sept. 17, 2019); Stone v. Isicoff. Case No. 19-24674Civ-Williams, D.E. 1 (S.D. Fla. Nov. 12, 2019); Stone v. Nelson Mullins Riley &
Scarborough LLP, et al.. Case No. 3:20-1290-JMC-SVH (D.S.C. Apr. 3, 2020); Stone v.
Nelson Mullins Riley & Scarborough LLP, et al.. Case No. 20-22346-Civ-Scola (S.D. Fla.
June 8, 2020). Stone was a party to at least four other cases in which she continued her
assault on the guardianship proceedings and its participants. Lustig v. Stone. 15-20150Civ-Lenard, D.E. 25, 32, 170, 171, 180, 197, 203, 204, 205, 208, 217, 218, 223, 224, 225
(S.D. Fla. Jan. 15, 2015); Lustig v. Stone. Case Nos. 4:18-cv-00469-JGZ, D.E. 17, 20, 25,
29, 31, 32, 40, 83, 86, 120, 121, 171, 172, 181, 186, 193 (D. Ariz. Mar. 20, 2018); Lustig
v. Stone. 4:18-mc-00004-JGZ-BPV, D.E. 17, 20, 25, 29, 30, 31, 32, 40, 41, 83, 85, 86, 88,
89, 90, 91, 92 (D. Ariz. Mar. 20, 2018); In re: Barbara Stone. Case No. 19-16164-BKCLMI, D.E. 15, 16, 17, 35, 36, 37, 38, 157, 158, 159, 160, 161, 162, 163 (Bankr. S.D. Fla.
May 9, 2019).

Essentially every pro se filing in each of the cases listed above contains
41

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 42 of 55

repetitive, vexatious, and harassing personal and/or professional attacks on Lustig, Hertz,
Lapides, Judge Genden, and many other individuals. Additionally, Stone has mounted
scandalous attacks on the integrity of several federal judges and has made a mockery of
the federal judicial system. Therefore, this factor weighs heavily in favor of deeming Stone
a vexatious litigant and enjoining future filings.
b.

Stone’s Motive in Pursuing the Litigation

Under the second factor, the Court looks to Stone’s motive in pursuing the litigation
and her expectation of prevailing. Ray. 2003 WL 22384806, at *2 (citing Safir, 792 F.2d
at 24).

As to Stone’s motive, on August 18, 2015, Judge Goodman found in his Report and
Recommendations on Plaintiffs Damages that “Stone has shown through her conduct a
single-minded intent to destroy Lustig professionally and personally.” (D.E. 58 at 17,
Report and Recommendation adopted. D.E. 64.) A thorough review of Stone’s subsequent
judicial filings demonstrates that her motive in pursuing these cases continues to be to
destroy Lustig professionally and personally, to avoid satisfying the Judgment Lustig
obtained against her, and to undermine the legitimacy of the guardianship proceedings.
At this point, Stone cannot possibly “have an objective good faith expectation of
prevailing[.]” Ray. 2003 WL 22384806, at *2 (citing Safir. 792 F.2d at 24). As previously
discussed, the Eleventh Circuit Court of Appeals has affirmed the Court’s entry of
Judgment against Stone, (D.E. 109), and subsequently affirmed the Court’s Order denying
Stone’s Motion to Vacate Judgment, (D.E. 148).

In every other case, Stone either

abandoned her claims or the Court dismissed them. Judge Scola found her claims to be
42

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 43 of 55

“fantastical and delusional.” Stone v. Scott, et al., Case No. 14-23318-Civ-Scola, D.E. 15
(S.D. Fla. Sept. 17, 2014). Judge Cooke found her complaint against Judge Isicoff to be
“frivolous on its face.” Stone v. Isicoff, Case No. 19-22527-Civ-Cooke, D.E. 7 (S.D. Fla.
Oct. 1, 2019). Based on the Court’s review, it appears that no judge in any of the cases
discussed above found any merit in any complaint, petition, or motion Stone has filed, other
than a motion for extension of time. Thus, Stone cannot possibly “have an objective good
faith expectation of prevailing[.]” Ray, 2003 WL 22384806, at *2 (citing Safir, 792 F.2d
at 24). This factor weighs heavily in favor of deeming Stone a vexatious litigant and
enjoining future filings.
c.

Whether the Litigant is Represented by Counsel

The third factor the Court considers is whether Stone is represented by counsel.
Ray, 2003 WL 22384806, at *2 (citing Safir, 792 F.2d at 24). Stone proceeded without
counsel from the inception of this lawsuit through the Court’s entry of Judgment against
her (although Stone, herself, is a former attorney who has been disbarred in Florida). See
D.E. 64 at 2 n.l (citing The Florida Bar Association, www.floridabar.org, Find a Lawyer,
Barbara Stone Kipnis (last visited Dec. 1, 2015)). During that time, Stone exhibited a
staunch refusal to comply with the Court’s Orders and Rules. (See, e.R., D.E. 20, 24, 31,
34, 35, 49, 64.)
On January 6, 2016, attorney Jesmany Jomarron filed a Notice of Appeal of the
Court’s Judgment on Stone’s behalf, and later filed a Motion to Dissolve Writ of
Garnishment. (D.E. 72, 82.) On August 14, 2017, the Court granted Ms. Jomarron’s
Motion to Withdraw as Stone’s attorney. (D.E. 130.)
43

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 44 of 55

Thereafter, Stone once again proceeded pro se and filed several frivolous motions,
including four “emergency” motions that were not properly certified as “true” emergencies
pursuant to Local Rule 7.1(d), (D.E. 144, 145, 146, 147), a Motion to Vacate Judgement,
(D.E. 148), and a Motion to Vacate Judgment and Set Aside Judgment for Fraud on the
Court, (D.E. 151). She also filed a “Supplement” to her pro se motions which included ten
handwritten pages attacking Lustig. (D.E. 154.)
On May 18,2018, Attorney Arthur J. Morburger filed a Notice of Appeal on Stone’s
behalf, thereby entering an appearance as Stone’s attorney. See S.D. Fla. L.R. 11.1(d).
Despite having counsel, Stone has continued to file frivolous pro se motions, (D.E. 170,
171, 197, 203, 204, 205, 208, 217, 218, 223, 224, 225), requiring the Court to repeatedly
expend judicial resources to strike those motions pursuant to Local Rule 11.1 (d)(4), and
repeatedly warn her that her “emergency” motions fail to comply with Local Rule 7.1(d)
and other local rules, (D.E. 172,198,200,206,210, 222,227). Her refusal to comply with
the Court’s rules and orders and to heed the Court’s warnings—whether or not she is
represented by counsel—weighs in favor of deeming her a vexatious litigant.
d.

Whether Stone has Caused Needless Expense to Other Parties and
Unnecessarily Burdened the Court

“One of the most important factors that the Court must consider in determining
whether to issue a Martin-Trigona order is whether the litigant’s actions have caused
needless expense to other parties or has posed an unnecessary burden on the Court and its
personnel.” Ray, 2003 WL 22384806, at *3. In this case alone, Lustig was required to
respond to numerous frivolous motions, (see, e.g., D.E. 14, 23,48, 63, 156,177), move for
44

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 45 of 55

sanctions due to Stone’s failure to comply with the Court’s Judgment, (D.E. Ill), and
advise the Court that Stone has published additional defamatory statements in the public
records of Pima County, Arizona, (D.E. 168, 168-1, 168-2, 168-3). Lustig has also been
required to defend against frivolous lawsuits filed by Stone before Judge Williams, Case
No. 14-21776-Civ-Williams (S.D. Fla. May 12, 2014) and Judge Zloch, Case No. 1561004-Civ-Zloch (S.D. Fla. May 14, 2015).18 Lustig was also required to litigate—and
successfully moved to dismiss—the voluntary Chapter 11 Bankruptcy proceeding Stone
filed in the District of Arizona, In re: Barbara Stone. Case No. 4:18-bk-13486-SHG, D.E.
121 (D. Ariz. Mar. 14, 2019).19 Thus, the Court finds that Stone has caused needless
expense to Mr. Lustig.
Likewise, the unnecessary burden that Stone’s actions have had on the Court cannot
be overstated. Briefly, due to Stone’s actions (and inaction), the Court was required to,
inter alia, issue four orders to show cause (D.E. 20, 24, 31, 138), eight orders striking
numerous motions that did not comply with the Court’s rules, (D.E. 49,166,172,198,206,
210, 222, 227), and several orders denying patently meritless and/or frivolous motions,
(see, e.g., D.E. 29 (Order Denying Emergency Application for Ex Parte Temporary
Restraining Order and Preliminary Injunction in which Stone requested that the Court

18

Stone had an additional lawsuit pending against Lustig before Judge Moore, but
that case was dismissed for lack of service. Stone v. Lustig, Case No. 19-22485-Civ-Moore (S.D.
Fla. June 14, 2019).
19

Stone also filed two adversary proceedings against Lustig in United States
Bankruptcy Court, but both were dismissed early. Stone v. Lustig. Case No. 4:19-ap-00081-SHG
(Bankr. D. Ariz. Mar. 4, 2019); Stone v. Lustig. Case No. 19-01165-BKC-LMI, D.E. 1 (Bankr.
S.D. Fla. May 29, 2019).
45

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 46 of 55

enjoin Judge Genden from holding a show cause hearing in state court); D.E. 49 (Order
Denying Motion for Sanctions in which Stone, who was proceeding pro se, requested
“attorneys’ fees and expenses incurred in filing [her] Motions to Dismiss and this Motion
for Sanctions”). The Court notes that this case has been closed since December 7, 2015
when the Court entered Final Judgment in favor of Lustig and against Stone. (D.E. 64.)
However, Stone continued (and still continues) to ferociously litigate this case, (see D.E.
144, 145, 146, 147, 148, 151, 170, 171, 174, 180, 197, 203, 204, 205, 208, 217, 218, 223,
224, 225), despite the fact that the Eleventh Circuit Court of Appeals has affirmed the
Court’s entry of Judgment against Stone, (Mandate, D.E. 109), and subsequently affirmed
the Court’s Order denying Stone’s Motion to Vacate Judgment, Lustig v. Stone. Case No.
18-12106 (11th Cir. Aug. 7, 2019).
Stone’s actions have also unnecessarily burdened several other divisions of this
Court.

Stone v. Hertz, et al.. 14-21776-Civ-Williams, D.E. 10, 16, 32, 38, 47, 52 (S.D.

Fla. May 14, 2014); Stone v. Scott, et al.. Case No. 14-23318-Civ-Scola, D.E. 1,14, (S.D.
Fla. Sept. 8,2014); Stone v. Brennan, et al.. Case No. 15-20810-Civ-Altonaga, D.E. 1 (S.D.
Fla. Feb. 27, 2015); Stone v. Genden, et al.. Case No. 15-61004-Civ-Zloch, D.E. 1, 10, 18
(S.D. Fla. May 14, 2015); Stone v. Lustig, 19-22485-Civ-Moore, D.E. 1 (S.D. Fla. June
14, 2019); Stone v. Isicoff. Case No. 19-22527-Civ-Cooke, D.E. 1 (S.D. Fla. June 18,
2019); Stone v. Elmore, Case No. 19-23951-Civ-Martinez, D.E. 1, 9 (S.D. Fla. Sept. 17,
20191; Stone v. Isicoff. Case No. 19-24674-Civ-Williams, D.E. 1 (S.D. Fla. Nov. 12,2019).
Thus, the Court finds that Stone has unnecessarily burdened the Court. Therefore, this
factor weighs heavily in favor of deeming Stone a vexatious litigant.
46

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 47 of 55

e.

Whether Other Sanctions Would be Adequate to Protect Other Parties
and the Court

Finally, the Court must determine whether other sanctions would be adequate to
protect Plaintiff and the Court.
As an initial matter, given the pending bankruptcy proceedings, the Court finds that
imposing monetary sanctions would be improper. See In re Barbara Stone. Case No. 1916164-BKC-LMI (Bankr. S.D. Fla. May 9, 2019).
Moreover, history shows us that other sanctions—e.g., a contempt order,
incarceration—are inadequate to curb Stone’s litigation. Four years ago the Court issued
an Omnibus Order entering Judgment against Stone which, among other things, ordered
Stone to remove certain defamatory statements from the internet and permanently enjoined
her from further publishing those statements.

(D.E. 64 at 15.)

Stone completely

disregarded the Court’s Judgment, refused to remove the defamatory statements from the
internet, and even republished defamatory statements about Lustig. (See D.E. Ill, 111-1,
111-2, 111-3, 111-4, 111-5, 111-6, 111-7, 111-8, 111-9.)
Thereafter, Stone published additional defamatory statements about Lustig. (See
D.E. 168, 168-1, 168-2, 168-3.) Specifically, on July 5, 2018, she executed an Affidavit
in the public record of Pima County, Arizona titled: “Affidavit and Notice of Illegal,
Wrongful and Void Conveyance of Title and Void and Illegal Title to Property and
Declaration of Truth.” (D.E. 168-1.) The Affidavit asserts, inter alia, that (1) Stone “has
been subjected to a vicious, fraudulent, illegal SLAPP lawsuit to extort her assets and
silence her by a void, unlawful order entered without jurisdiction ... filed by Roy R. Lustig

47

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 48 of 55

against Affiant,” (id at 3); (2) the “SLAPP lawsuit was the product of perjured, fraudulent
accusations against Affiant by Roy R. Lustig . . .(id. at 4); and (3) suggests that Lustig
“intentionally placed [Helen Stone] on the brink of death repeatedly . . .

(id.). That

Affidavit was recorded in the Pima County Recorder three times on July 20, 2018. (Id at
9; D.E. 168-2 at 9; D.E. 168-3 at 9.)
Moreover, the record reflects that Stone has been incarcerated at least twice due to
her actions in the state court guardianship proceedings. First, on September 2,2015, Stone
advised the Court that she had been arrested and “incarcerated for approximately three
weeks—in connection with her mother’s probate case . . .

(D.E. 61 at 2.) Second, on

February 26, 2018, Stone filed a Motion for extension of time to reply to the Order to show
cause why she should not be held in contempt, and to attend the show cause hearing, stating
that she was “confined to jail again as a result of issues arising from the guardianship of
her mother, Helen Stone[.]” (D.E. 141 at 1.) The Court further notes that in one of her
Motions to Vacate Judgment, Stone states that “for the past FIVE YEARS, Barbara has
been repeatedly detained on a false charge of ‘interfering’ with the ‘custody’ of her own
mother....” (D.E. 151 at 9 (emphasis added).) Thus, it appears that Stone may have been
incarcerated more than twice in relation to her mother’s guardianship proceedings.
Regardless, despite having been “repeatedly” incarcerated for her actions in relation
to the issues giving rise to this lawsuit, and despite the prospect of being held in contempt
for her failure to comply with this Court’s Orders, (see D.E. 138, 143), Stone has refused
to comply with the Court’s Omnibus Order, republished the defamatory material, published
additional defamatory statements about Lustig, and continued to vexatiously litigate this
48

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 49 of 55

case full throttle—a case that has been closed for more than four years. Finally, the Court
notes that although the Court has repeatedly stricken her pro se motions pursuant to Local
Rule 11.1(d)(4) because she is represented by counsel, (D.E. 167, 172, 198, 206), she
continues to file pro se motions, (D.E. 170, 171, 198, 203, 204, 205). As such, the Court
finds that other sanctions would be inadequate to protect the Parties and the Court.
111.

Injunction
The court is not powerless to curbing Stone’s abuses. “Federal courts have both the

inherent power and the constitutional obligation to protect their jurisdiction from conduct
which impairs their ability to carry out Article III functions.” Procup v. Strickland, 792
F.2d 1069, 1074 (11th Cir. 19861 (citing In re Martin-Trigona. 737 F.2d at 1261-621. “The
court has a responsibility to prevent single litigants from unnecessarily encroaching on the
judicial machinery needed by others.” IcL “In allowing courts to protect their ‘respective
jurisdictions,’ the [All Writs] Act allows them to safeguard not only ongoing proceedings,
but potential future proceedings, as well as already-issued orders and judgments.” Kiay,
376 F.3d at 1099 (citing Wesch v. Folsom. 6 F.3d 1465, 1470 (11th Cir. 1993) (“In
addition, courts hold that despite its express language referring to ‘aid . . . of jurisdiction,’
the All-Writs Act empowers federal courts to issue injunctions to protect or effectuate their
judgments.”) (footnotes omitted). This includes the power to enjoin litigants who abuse
the legal system by harassing their opponents. Harrelson v. United States. 613 F.2d 114,
116 (5 th Cir. 1980) (affirming district court’s dismissal of complaint and injunction against

49

Case l;15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 50 of 55

“any future litigation on any cause of action arising from the fact situation at issue in this
case”).20
“The right of access to the courts ‘is neither absolute nor unconditional.’” Miller v.
Donald. 541 F.3d 1091,1096(11th Cir. 2008) (quoting Cofield v. Ala. Pub. Serv. Comm’n.
936 F.2d 512, 516 (11th Cir. 1991) (quoting In re Green. 669 F.2d 779, 785 (D.C. Cir.
1981))). “A vexatious litigant does not have a First Amendment right to abuse official
processes with baseless filings in order to harass someone to the point of distraction or
capitulation.” Riccard. 307 F.3d at 1298 (citing Filipas v. Lemons. 835 F.2d 1145, 1146
(6th Cir. 1987) (requiring vexatious litigants to obtain leave of court before filing any
further complaints does not violate the First Amendment). “Conditions and restrictions on
each person’s access are necessary to preserve the judicial resource for all other persons.
Frivolous and vexatious law suits threaten the availability of a well-functioning judiciary
to all litigants.” Miller. 541 F.3d at 1096. The question for the Court is what conditions
and restrictions are necessary in this case to preserve judicial resources and prevent
needless harassment for Mr. Lustig.
The Court has broad discretion in fashioning an injunction so long as it does not
“completely foreclose a litigant from any access to the courts.” Riccard. 307 F.3d at 1298
(citing Martin-Trigona. 986 F.2d at 1387); but see Maid of the Mist Corn, v. Alcatraz
Media. LLC. 388 F. App’x 940,941 (11th Cir. 2010) (affirming a district court’s injunction

20

In Bonner v. City of Prichard. 661 F.2d 1206, 1209 (11th Cir. 1981), the Eleventh
Circuit adopted as binding precedent all decisions handed down by the former Fifth Circuit before
October 1, 1981.
50

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 51 of 55

restricting the party from “filing any further motion, pleading, or other paper in relation to
the instant civil action, and any new lawsuit in any court involving claims arising from the
same factual predicate or nucleus of operative facts as in the instant case.”) (emphasis
added). “Courts can be creative in fashioning appropriate injunctions against abusive
litigation tactics.” Barash v. Kates. 686 F. Supp. 2d 1323, 1325 (S.D. Fla. 2008) (citations
omitted). The Eleventh Circuit routinely upholds injunctions restricting a vexatious litigant
from filing anything without prior approval from the Court. See Martin-Trigona. 986 F.2d
at 1387 (“This Court has upheld pre-filing screening restrictions on litigious plaintiffs.”)
(citing Copeland v. Green, 949 F.2d 390 (11th Cir. 1991); Cofield. 986 F.2d at 517-18);
see also Riccard, 307 F.3d at 1299. The Court agrees that prior approval is the prudent
way to proceed, as outlined below.
IV.

Conclusion
Accordingly, it is ORDERED AND ADJUDGED that:
1.

Defendant Barbara Stone is hereby deemed to be a vexatious litigant and is
ENJOINED from making any filing in this Action without first obtaining
leave of the Court;

2.

To obtain leave to make a filing, Stone shall submit to Magistrate Judge
Jonathan Goodman a short summary of the proposed filing that:
a.

Shall be double-spaced and printed in 12-point or larger type in an
easily-readable font;

b.

Shall not exceed two pages in length;

c.

Shall be styled as “Motion for Leave to File”;
51

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 52 of 55

d.

Shall briefly (a) state that she seeks the Court’s approval to make a
particular filing, (b) explain the legal purpose or basis of the pleading,
and, (c) describe the nature of the pleading with specificity;21 and

e.

Shall be delivered by the United States Postal Service via certified
mail to Magistrate Judge Jonathan Goodman at:
James Lawrence King Federal Justice Building
99 Northeast Fourth Street
Room 1168
Miami, Florida 33132

3.

Judge Goodman will review such submissions in chambers and, if
appropriate, enter an order denying the request, granting it, or scheduling the
matter for hearing, depending on the circumstances and the Court’s
conclusions;22

4.

Grounds for denying Stone leave to make a proposed filing include, but are
not limited to, filings that are deemed to be repetitive, duplicative, vexatious,
incoherent, harassing, scandalous, and/or pertaining to issues already
decided by the Court;

5.

In his discretion, Judge Goodman may (a) Order Stone to mail a copy of the
proposed filing to his chambers for further review, (b) Order Plaintiff to show
cause as to why Stone should not be permitted to make a proposed filing,
and/or (c) grant in part and deny in part leave to make a proposed filing;

21

See Barash v. Kates. 586 F. Supp. 2d 1323, 1331 (S.D. Fla. 2008).

22

See In re Dicks. 306 B.R. 700, 708 (Bankr. M.D. Fla. 2004).
52

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 53 of 55

6.

This injunction extends to Barbara Stone’s agents, attorneys, aliases, and
anyone acting in concert with Stone or on her behalf;23

7.

This injunction extends to the filing of any new action, complaint, claim for
relief, suit, controversy, cause of action, grievance, writ, petition, accusation,
charge or any similar instrument against Lustig, his family, his clients, his
attorneys, or anyone else associated with him in any court, forum, tribunal,
self-regulatory organization or agency (including law enforcement), whether
judicial, quasi-judicial, administrative, federal, state or local, including Bar
disciplinary and/or grievance committees without first obtaining leave of thi s
Court;24

8.

This injunction shall not apply to filings in Stone’s current appeal before the
Eleventh Circuit Court of Appeals, see Lustig v. Stone. Case No. 19-12112
(11th Cir. filed May 31, 2019);

9.

Stone shall have THIRTY DAYS from the date of this Order within which
to file a copy of this Order on the docket in the following cases: Lustig v.
Stone, Case No. 4:18-cv-00469-JGZ (D. Ariz. filed Mar. 20, 2018); Lustig
v. Stone. 4:18-mc-00004-JGZ-BPV (D. Ariz. filed Mar. 20, 2018); In re:
Barbara Stone. Case No. 19-16164-BKC-LMI (Bankr. S.D. Fla. filed May 9,
2019); Stone v. Elmore. Case No. 19-23951-Civ-Martinez (S.D. Fla. filed

23

See Barash. 586 F. Supp. 2d at 1331.

24

See Riccard. 307 F.3d at 1298.
53

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 54 of 55

Sept. 4, 2019); and Stone v. Nelson Mullins Riley & Scarborough LLP, et
ah, Case No. 3:20-1290-JMC-SVH (D.S.C. Apr. 3, 2020), so that those
Courts may decide whether they wish to enforce the injunction.25 The Order
shall be attached as an Exhibit to a Notice of Filing. The Notice of Filing
shall contain only the following information: (1) the name of the Court in
which it is being filed; (2) the case number and caption of the case in which
it is being filed; (3) the title “Notice of Filing Order Enjoining
Plaintiff/Defendant/Debtor Barbara Stone from Making any Further Filings
Without

First

Obtaining

Judicial

Permission”;

(4)

the

sentence:

“Plaintiff/Defendant/Debtor Barbara Stone has been ordered to file on the
docket in this case the attached ‘Order Enjoining Defendant Barbara Stone
from Making any Further Filings Without First Obtaining Judicial
Permission.”’; (5) a signature block; (6) a certificate of service; and (7) any
other information required by the rules of the court in which the Notice is
being filed. The Notice shall not contain any other statement of any kind,
including arguments, assertions, editorials, opinions, musings, requests, or
demands;

25

See Martin-Trigona, 986 F.2d at 1388 (affirming Judge Zloch’s dismissal of
complaint for failing to comply with pre-filing injunction issued by a federal district court in
Connecticut).
54

Case l:15-cv-20150-JAL Document 228 Entered on FLSD Docket 06/25/2020 Page 55 of 55

10.

If Stone wishes to make any filing in any other case listed in Section 11(a),
supra.26 she must first file a copy of this Order on the docket in that other
case pursuant to the Notice of Filing procedure outlined in the preceding
paragraph;

11.

Any violations of this Order may result in further sanctions.

DONE AND ORDERED in Chambers at Miami, Florida this 25th day of June,
2020.

(foanA.LENARD
UNITED STATES DISTRICT JUDGE

26

Specifically, Stone v. Genden. et al.. 14-cv-03404-LAP (S.D.N.Y. May 6, 2014);
Stone v. Hertz, et al., 14-cv-03478-LAP (S.D.N.Y. May 12,2014); Stone v. Hertz, et al.. 14-21776Civ-Williams (S.D. Fla. May 14, 2014); Stone v. Scott, et al.. Case No. 14-23318-Civ-Scola (S.D.
Fla. Sept. 8, 2014); Stone v. Brennan, et al.. Case No. 15-20810-Civ-Altonaga (S.D. Fla. Feb. 27,
2015); Stone v. Genden. et al.. Case No. 15-61004-Civ-Zloch (S.D. Fla. May 14, 2015); In re:
Barbara Stone. Case No. 4:18-bk-13486-SHG (Bankr. D. Ariz. Nov. 2, 2018), Stone v. Lustig.
CaseNo. 4:19-ap-00081-SHG (Bankr. D. Ariz. Mar. 4,2019); Stone v. Lustig. CaseNo. 19-01165BKC-LMI (Bankr. S.D. Fla. May 29, 2019); Stone v. Unidentified Party. Case No. 19-01177BKC-LMI (Bankr. S.D. Fla. June 3, 2019); Stone v. Lustig. 19-22485-Civ-Moore (S.D. Fla.
filed June 14, 2019); Stone v. Isicoff. CaseNo. 19-22527-Civ-Cooke (S.D. Fla. June 18, 2019);
Stone v. Elmore, et al.. Case No. 19-CV-8264 (CM) (S.D.N.Y. Sept. 4, 2019); Stone v. Isicoff.
Case No. 19-24674-Civ-Williams (S.D. Fla. Nov. 12, 2019).
55

APPENDIX G

Case: 20-12510

Date Filed: 08/04/2020

Page: 1 of 2

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-12510-J
In re:
BARBARA STONE,
Petitioner.
On Petition from the
United States District Court for the
Southern District of Florida
Before: MARTIN and JILL PRYOR, Circuit Judges.
BY THE COURT:
Barbara Stone, a private citizen proceeding pro se, has filed an “All Writs Constitutional
Crises Petition and/or Appeal” relating to a civil lawsuit filed against her in 2015 in the U.S.
District Court for the Southern District of Florida. Stone’s petition is rambling and difficult to
follow, but she asks us to “set aside” the district court’s December 2015 Omnibus Order and its
June 2020 filing restriction order and issue an emergency restraining order and orders for
production. Stone also filed an “Emergency Supplement” to the amended petition, alleging that
the district court’s orders amounted to a human rights violation.
The All Writs Act provides that federal courts “may issue all writs necessary or appropriate
in aid of their respective jurisdictions and agreeable to the usages and principles of law.” 28 U.S.C.
§1651. It gives a “residual source of authority to issue writs that are not otherwise covered by
statute,” and, “[wjhere a statute specifically addresses the particular issue at hand, it is that

Case: 20-12510

Date Filed: 08/04/2020

Page: 2 of 2

authority, and not the All Writs Act, that is controlling.” Pa. Bureau of Corr. v. U.S. Marshals
Serv., 474 U.S. 34, 43 (1985). The All Writs Act is an extraordinary remedy that “invests a court
with a power that is essentially equitable and, as such, not generally available to provide
alternatives to other, adequate remedies at law.” Clinton v. Goldsmith, 526 U.S. 529, 537 (1999).
In a civil case, a plaintiff may appeal a district court’s judgment by filing a notice of appeal
within 30 days of the judgment’s entry. 28 U.S.C. § 1291; Fed. R. App. R 4(a)(1)(A). An
injunctive order restricting a vexatious litigant’s ability to file documents in the district court may
be immediately appealed as the entry of an injunction under 28 U.S.C. § 1292(a)(1). Procup v.
Strickland, 792 F.2d 1069, 1070 n.l (11th Cir. 1986) (en banc).
Here, it is not clear what type of relief Stone seeks under the All Writs Act, as she has
failed to specify any specific type of writ. Nevertheless, to the extent Stone challenges the district
court’s entry of a final judgment in the plaintiffs favor, as well as the filing restriction it placed
on her, she had, and has taken, the adequate alternative remedy of appealing both orders. See 28
U.S.C. § 1291; Fed. R. App. P. 4(a)(1)(A); Pa. Bureau of Corr., 474 U.S. at 43; Clinton, 526 U.S.
at 537; Procup, 792 F.2d at 1070 n.l. Accordingly, Stone’s petition is hereby DENIED.

2

APPENDIX H-l

Case 20-01071-LMI

Doc 51

Filed 07/29/20

Page 1 of 3

*v*\
£3

2

w

\o

O

©
V,

K

^?*iM»TOCT

ORDERED in the Southern District of Florida on July 29, 2020.

tW 77] Q)iec
Laurel M. Isicoff
Chief United States Bankruptcy Judge

UNITED STATES BANKRUPTCY COURT
SOUTHERN DISTRICT OF FLORIDA
IN RE:

CASE NO. 19-16164-BKC-LMI

BARBARA STONE,
Chapter 7
Debtor.
JOEL TABAS,

ADV. CASE NO. 20-1071-BKC-LMI

Plaintiff,
vs.
FIRST CONSULTANT SERVICES, INC.,
ARTHUR J. MORBURGER, BARBARA
STONE, B.I. SAMUELS TRUST #1, ROSE
INVESTMENTS TRUST, SILVER
INVESTMENT TRUST, CASAS
CATALINA TRUST, and JANET PIPES,
Defendants.
AMENDED1 ORDER SETTING BRIEFING SCHEDULE AND HEARING
ON TRUSTEE’S MOTION FOR SUMMARY JUDGMENT
1 The order is amended to indicate that the hearing scheduled for August 25, 2020 at 9:30 a.m. is non-evidentiary.

Case 20-01071-LMI

Doc 51

Filed 07/29/20

Page 2 of 3

ADV. CASE NO. 20-1071-BK.C-LM1

This matter came before the Court upon the Motion for Summary Judgment (ECF #37) filed
by Chapter 7 Trustee, Joel Tabas (“Trustee’s Motion for Summary Judgment”). The Court having
determined that it is appropriate to schedule deadlines in order to expedite and facilitate the hearing
upon this matter, it is hereby,
ORDERED AND ADJUDGED as follows:
1.

The hearing on Trustee/Plaintiffs Motion for Summary Judgment is set for

August 25. 2020 at 9:30 a.m. before the Honorable Laurel M. Isicoff. The Court is presently
closed to in-person hearings as a result of the dangers presented by the COVID-19 pandemic.
The hearing will take place by video conference using the services of Zoom Video
Communications, Inc. Refer to the instructions under Judge Isicoffis name on the Court’s
website, www.flsb.uscourts.gov. To register for the video conference, go to:
https://us02web.zoom.us/meeting/register/tZctdOGrqzOvGNb70_OBWuO
G88q7sWmXpu-9
All parties wishing to participate in the hearing by video conference shall register no later
than 4:00 p.m. prevailing Eastern Time on August 24,2020. The parties are encouraged to limit
video conference participation to those who are necessary to the presentation of this matter. If the
number of parties wishing to participate in the video conference, in the Court’s view, exceeds the
number which would permit the efficient, stable, and reliable transmission of the evidentiary hearing
by video conference, the Court may require that certain parties be permitted to participate in the
evidentiary hearing only by telephone. The Court will provide to each party participating by
telephone separate dial-in instructions, which may be used with any telephone equipment.
4#

Case 20-01071-LMI

Doc 51

Filed 07/29/20

Page 3 of 3

ADV. CASE NO. 20-1071-BKC-LMI

2.

The Defendants shall file a written response to Trustee’s Motion for Summary

Judgment (ECF #37), no later than fourteen (14) days from the date of this Order. The response
may not exceed fifteen (15) pages.
3.

Should the Trustee/Plaintiff choose to file a reply to the Defendants’ response, the

deadline to file the reply is seven (7) days from the date the response is filed. The reply may not
exceed ten (10) pages.
4.

Once the deadline for filing a reply expires, the Court will review the docket and

determine if a hearing on the Motion for Summary Judgment is still necessary. The Court may then
cancel the hearing and rule on the pleadings.
###

Copies furnished to:
Drew Dillworth, Esq.
Joel Aresty, Esq.
\

Attorney Dillworth shall serve a copy of this order upon all interested parties and shall file a
Certificate of Service ofsame with the Clerk of the Court.

5#

APPENDIX H-2

Case 19-16164-LMI

Doc 228

Filed 01/08/20

Page 1 of 3

a
w

1

\o
o
V,

S;^f^urarticr

ORDERED in the Southern District of Florida on January 8, 2020.
v

Laurel M. Isicoff
Chief United States Bankruptcy Judge

UNITED STATES BANKRUPTCY COURT
SOUTHERN DISTRICT OF FLORIDA
IN RE:

Case No. 19-16164-BKC-LMI

Barbara Stone,

Chapter 7

Debtor.

ORDER TO SHOW CAUSE WHY DEBTOR SHOULD NOT BE REQUIRED TO HIRE
COUNSEL OR SEEK LEAVE OF THE COURT PRIOR
TO FILING ANYTHING WITH THE COURT
THIS CAUSE came before the Court sua sponte. A review of the record in this case
indicates that the pro se Debtor has filed motions, pleadings, and complaints that are
incomprehensible, laced with profanity and conspiracy theories, and contain unfounded and, in
most instances, completely false, statements about parties involved in this case as well as about
the Court.

Moreover, for the most part, the frequent and lengthy pleadings do not state

1

Case 19-16164-LMI

Doc 228

Filed 01/08/20

Page 2 of 3

recognizable claims, or, if any cognizable relief is requested, the possible purpose of the document
is only identifiable after careful review and much speculation regarding the substance of any
document. Finally, most of the pleadings filed are repetitions of prior pleadings which seek relief
that has already been denied, sometimes several times.
The filing of these documents has resulted in a burden on the Court, opposing parties, and
is a waste of judicial resources.

Moreover, those pleadings that contain baseless and lewd

allegations regarding Mr. Lustig are possibly a direct violation of a final judgment entered by the
District Court1, in which the Debtor was ordered “to remove the internet postings found in Trial
Exhibits 1,2,3, 5,19,25, and 30” and further that the Debtor was “PERMANENTLY ENJOINED
from continued and repeated publishing of the statements contained in those Trial Exhibits.”2
The Court has already cautioned the Debtor she is subject to Fed.R.Bankr.P. 90113,
however it appears that she has not taken that warning to heart. Moreover, the Debtor appears to
be a vexatious litigant whose access to court, while it cannot be denied, may be subject to
conditions. See 28 U.S.C. §1651 and 11 U.S.C. §105.
The Debtor having disregarded this Court’s warning and having continued to file a
multitude of motions, pleadings and complaints that, as written, clearly violate Rule 9011, it is,
ORDERED that the Debtor Barbara Stone shall appear at a hearing on February 7, 2020
at 11 a.m. at the United States Bankruptcy Court, 301 North Miami Avenue, Courtroom 8,

1 Lustig v. Stone, Case no. 15-20150-JAL, OMNIBUS ORDER DENYING 61 Defendant's Emergency Motion For
Leave To File Objections To Magistrate's Report, Motion For Leave To File Answer And Affidavits, Motion To Set
Aside Entiy Of Default, Answer, Motion For Admission Pro Hac Vice & Supporting Documentation By Mail To
Provide Local Counsel Additional Time; ADOPTING 58 Report And Recommendation On Plaintiffs Damages;
ENTERING Final Judgment In Favor Of PlaintiffAnd Against Defendant; ENTERING A Permanent Injunction;
DENYING AS MOOT All Remaining Pending Motions, And CLOSING CASE (ECF #64).
2 Id. at 15.
3 See Order Denying Fifth Motionfor Disqualification ofBankruptcy Judge Laurel M. Judge [sic] Isicoff(ECF #116),
Order Denying Sixth Motion for Disqualification of Bankruptcy Judge Laurel M. Judge [sic] Isicoff (ECF #173),
Order Denying Debtor’s Motion to Dismiss (ECF #176), and Order Denying Debtor's Emergency Seventh Motionfor
Disqualification ofBankruptcy Judge Laurel M. Isicoff (ECF #198).

2

Case 19-16164-LMI

Doc 228

Filed 01/08/20

Page 3 of 3

Miami, Florida to show cause why she should not be required to either obtain competent counsel
to represent her in this bankruptcy case and any associated cases, or seek leave of Court before
filing any document with the bankruptcy court. See Martin-Trigona v. Lavien, 763 F.2d 140 (2d
Cir. 1985); In re Martin-Trigona, 737 F.2d 1254 (2d Cir. 1984); Blanco GMBH + CO.KG v.
Vlanco Industies, LLC, 2015 WL 11142885 (S.D. Fla. June 1, 2015); May v. Shell Oil Co., 2000
WL 1276943 (S.D. Fla. Aug. 31, 2000). Accord Procup v. Strickland, 792 F. 2d 1069 (11th Cir.
1986). Failure of the Debtor to attend the hearing shall result in immediate entry of an order
requiring all documents submitted by the Debtor for filing must be reviewed by the Court before
such document will be docketed to determine whether such document shall be docketed, possible
requirement of a bond to assure payment of any sanctions, or other restrictions that the Court has
the authority to inpose under applicable law.

###

The Clerk of Court shall serve a copy of this order upon all parties in interest.

3

